Office of
Inspector
General
Semiannual
Report to
the Congress
October 1, 1986 to·
March 31, 1987



May 1, 1987
FOREWORD
This report, submitted pursuant to the Inspector General
Act of 1978, summarizes Office of Inspector General
activity over the 6-month period ending March 31, 1987.
It is my third Report to the Congress.
Solid support from the Congress, the Office of Manage-
ment and Budget, and the GSA Administrator has
enabled us to start revitalizing the OIG. An active re-
cruitment program was put in place this period, and we
also set about providing our staff with the logistical
support they need to do their jobs.
I am very pleased to report that the OIG staff is pro-
ducing results commensurate with the increased in-
vestment in our office. Most notably, management
commitments to recover funds, management commit-
ments to more efficiently use resources, voluntary
recoveries, court-ordered recoveries, and investigative
recoveries totaled $95,836,646 during this 6-month
period. This represented a return of $9.51 for every $1
budgeted for OIG operations during the same period.
No Office of Inspector General stands alone; these
accomplishments would not have been possible with-
out the continued cooperation and support of the GSA
Administrator and his management team.




WILLIAM R. BARTON
Inspector General

Apri130, 1987
INTRODUCTION AND OVERVIEW

A. Introduction                                              Federal Supply Service
This report, submitted pursuant to the Inspector Gen-        The OIG invested 40 percent of its direct workhours in
eral Act of 1978, chronicles the activities of the General   audits and investigations of Federal Supply Service
Services Administration (GSA) Office of Inspector Gen-       (FSS) programs. Noteworthy audits issued this period
eral (OIG) between October 1, 1986 and March 31, 1987.       advised management of:
It is the seventeenth Report to the Congress since the         49   Opportunities to achieve price improvements in
appointment of GSA's first Inspector General.                       procurements of prefabricated structures.
                                                               49   The need to include equitable adjustment provi-
                                                                    sions in contracts for batch-produced materials.
B. Overview                                                  In response to OIG audits and investigations, the De-
                                                             partment of Justice:
The following paragraphs provide an overview of OIG
audit and investigative coverage of the Agency, as well        49   Reached a $680,000 civil fraud settlement with a
as a summary of OIG accomplishments and productiv-                  laboratory equipment supplier.
ity. In addition, this section highlights significant OIG      49   Successfully prosecuted five GSA contractor em-
prevention activities.                                              ployees who sold stolen Government property.
                                                               49   Entered into a $60,000 civil settlement agreement
                                                                    with an equipment repair firm.
1. Audit and Investigative Coverage of                       Detailed information on these and other activities is
       GSA Programs                                          presented in Section III.
Audit and investigative coverage of GSA programs
identified a number of opportunities for more efficient      Information Resources Management Service
and effective Agency operations. Overall, this report re-
flects a strong commitment on the part of GSA man-           The OIG expended 12 percent of its direct workhours
agement to make those improvements.                          performing audits and investigations involving the pro-
                                                             grams of the Information Resources Management Ser-
                                                             vice (IRMS). As a result of the cooperative efforts of
Public Buildings Service                                     IRMS and the OIG, $28.7 million was avoided on a ma-
                                                             jor procurement for general purpose automated data
The OIG expended 39 percent of its direct workhours          processing (ADP) equipment and software.
reviewing Public Buildings Service (PBS) programs. Re-       The OIG also issued a consolidated report on the Pres-
sultant audits assisted PBS managers in taking action        ident's Council on Integrity and Efficiency (PCIE) re-
relative to:                                                 view of Federal Telecommunications System (FTS)
  49   Possible problems associated with a retrofilling      Utilization (see Section VIII). The report contained rec-
       process for polychlorinated biphenyl (PCB) con-       ommendations to reduce Government-wide telecom-
       taminated electrical transformers.                    munications costs by an estimated $125 million.

  49   Deferring settlement on the purchase of a build-      In addition, OIG audit and investigative efforts resulted
       ing with potential structural deficiencies.           in a $1.75 million settlement agreement with an IRMS
                                                             contractor. The full amount of the settlement has been
  49    An unnecessary $209,000 project to 'rewire a         paid to the Government.
        warehouse.
                                                             Detailed information on these and other activities is
Actions by the Department of Justice on other audits         presented in Section IV.
and investigations resulted in:
  49    A $5 million cost avoidance on a contractor
        claim.                                               Other GSA Coverage
  49   A $65,000 consent judgment against a contractor       The OIG expended over 9 percent of its direct work-
       that allegedly violated the false claims act.         hours reviewing organizations such as the Office of
  49    Successful prosecution of a lawn maintenance         Administration, the Federal Property Resources Ser-
                                                             vice, and the Office of the Comptroller. The resultant
        contractor for bribery of a GSA employee.
                                                             audits addressed a variety of areas, including stockpile
Detailed information on these and other activities is        operations, consultant seryice contracts, budget activi-
presented in Section II.                                     ties, and imprest funds.
     In response to issues raised in three audits, manage-                           •    24 indictments/ic.formations/complaints on
     ment is taking action to improve:                                                    criminal referrals;
       •    Reporting procedures for consultant service                              •    19 successful criminal prosecutions;
            contracts.
                                                                                     •    6 settlements and 1 civil fraud complaint;
       •   Fund control over building repair expenditures.
                                                                                     •    29 contractor suspensions and 25 contractor
       •   Operations at a regional printing facility.                                    debarments;
     In addition, an OIG investigation led to the conviction                         •    25 reprimands, 4 suspensions, 2 demotions, and
     of a museum owner for theft of Government property.                                  10 terminations of GSA employees;
     Detailed information on these and other activities is                           •    49 Inspector General subpoeaas; and
     presented in Section V. .
                                                                                     •    144 legislative initiatives and III regulations and
                                                                                          directives reviewed.
                                                                                  Management commitments to more efficiently use re-
     2. OIG Accomplishments and                                                   sources, management commitments to recover funds,
        Productivity                                                              voluntary recoveries, court-ordered recoveries, and in-
                                                                                  vestigative recoveries totaled $95,836,646 during the
     The OIG tracks its accomplishments both on an aggre-                         first half of FY 1987. This represented a return of $9.51
     gate basis and, in critical areas of our performance, on                     for every $1 budgeted to OIG operations during the
     the basis of actual staffyears incurred. The latter cal-                     6-month period.
     culations yield productivity data that are less subject to
                                                                                   Detailed information on these and other activities is
     fluctuating staffing levels.
                                                                                   presented in Sections VI and VII.


     Overall OIG Accomplishments                                                   OIG Productivity
     OIG accomplishments this period included:                                     As noted previously, in critical areas of our perfor-
                                                                                   mance we compute OIG productivity based on actual
       •   322 audit reports;                                                      staffyears - full-time equivalent (PTE) positions -
       •   $215,707,072 in recommendations for more                                incurred. Since these data are less subject to fluctuating
           efficient use of resources and in recovery                              staffing levels, they are an excellent mechanism for
           recommenda tions;                                                       measuring OIG performance over time.

       •   $92,412,088 in management commitments to                                The following table presents these productivity data for
           more efficiently use resources;                                         FY 1984 through the first half of FY 1987. During the
                                                                                   first half of FY 1987, the OIG clearly made significant
       •   $3,424,558 in management commitments to re-                             gains in recovering/avoiding costs and in recommend-
           cover funds, voluntary recoveries, court-ordered                        ing costs for recovery/avoidance. While our productiv-
           recoveries, and investigative recoveries;                               ity in these areas was influenced              several
       •    183 investigative cases opened and 178 closed;                         exceptionally high dollar results, it also          the
                                                                                   OIG's focus on assuring - principally          contract
       •   18 case referrals accepted for criminal prosecution                     audits and white collar crime investigations -     pru-
           and 9 case referrals accepted for civil litigation;                     dent expenditure of Government funds.

                                                                                                                                    Half
                           Productivity Factor                                    FY84            FY85            FY86            FY81
           Total costs recovered/avoided* per audit,
             counsel, and investigations FTE .................... .              $522,688        $444,152        $368,065        $615,323
           Recommended cost recovery and avoidance
             per audit FTE ................................................. .   $1,357,104      $601,564        $792,089      $1,896,159
           Audit reports per audit FTE ................................ .            3.1            2.7             2.9            2.8
           Referrals (criminal, civil, and administrative) per
             investigations FTE ......................................... .         8.4             7.6                6.0         5.6
           Positive investigative outcomes (indictments/
             informations/complaints/successful
             prosecutions) per investigations FTE ............. .                   0.9              1.2               1.2         1.1
           Employee actions (reprimands, terminations,
             suspensions, and demotions) per
             investigations FTE ......................................... .         1.6              1.5               1.3         1.1
     'Includes management commitments, voluntary recoveries, court-ordered recoveries, and investigative recoveries.
ii
3. Prevention Activities                                     leases involving annual rentals in excess of
                                                             $200,000.
As detailed in Section VIII, the OIG's program to pre-
vent fraud, waste, and mismanagement encompasses a       *   Integrity Awareness Briefings for 2,663 GSA
wide variety of activities.                                  employees.
Highlights of our efforts during the period include:
                                                         *   Receipt of 295 Hotline calls/letters and referral of
  *   Completion of 42 preaward advisory reviews of          76 of these complaints for further action.
TABLE OF CONTENTS
                                                                        Page                                                                    Page
INTRODUCTION AND OVERVIEW................                                i     SECTION VI-STATISTICAL SUMMARY OF
                                                                               OIG ACCOMPLISHMENTS..............................                18
REPORTING REQUIREMENTS .......................                          vi       A. OIG Accomplishments ..............................          18
SECTION I-ORGANIZATION, STAFFING,                                                B. Summary Statistics ....................................     19
AND BUDGET .................................. .................          1     SECTION VII-REVIEW OF LEGISLATION
 A. Organization...... ........................ .................        1     AND REGULATIONS ....... .................................        26
 B. Office Locations .........................................           1       A. Legislation/Regulations Reviewed ............               26
  C. Staffing and Budget.....................................            1       B. Significant Comments ...............................        26
SECTION II-PUBLIC BUILDINGS                                                    SECTION VIII-OTHER OIG ACTIVITIES ....                           28
SERVICE..............................................................   2        A. OIG Prevention Program ...........................          28
  A. Overview of OIG Activity...... ...................                 2        B. Projects Sponsored by the PCIE.................             29
  B. Significant Audits and Investigations .......                      2
  C. Significant Preaward Audits ......................                 4
  D. Statistical Highlights ................ .................          4
  E. Significant Audits From Prior Reports ......                       5
SECTION III-FEDERAL SUPPLY SERVICE...                                    8     APPENDICES
  A. Overview of OIG Activity...... ...................                  8
  B. Significant Audits and Investigations .......                       8     APPENDIX I-AUDIT REPORT REGISTER ...                             32
  C. Significant Preaward Audits ......................                  9     APPENDIX II-DELINQUENT DEBTS............                         45
  D. Statistical Highlights .................................           10
  E. Significant Audits From Prior Reports ......                       10
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE ................................                     12
  A. Overview of OIG Activity.........................                  12     LIST OF TABLES
  B. Significant Audits and Investigations .......                      12
                                                                               1.   Summary of OIG Audits ............................ .....    19
  C. Significant Pre award Audits ......................                13
                                                                               2.   Resolution of OIG Audits...............................     20
  D. Statistical Highlights .................................           13
                                                                               3.   Resolution Decisions on ole Audits ............             21
  E. Significant Audits From Prior Reports ......                       14
                                                                               4.   Summary of Contract Audit Settlements ......                22
SECTION V-OTHER GSA COVERAGE.........                                   15     5.   Investigative Workload...................................   23
  A. Overview of OIG Activity.........................                  15     6.   Distribution of Cases Opened This Period....                23
 B. Significant Audits and Investigations .......                       15     7.   Summary of ole Subject Referrals ................           24
  C. Statistical Highlights .................................           16     8.   Summary of Criminal and Civil Actions.......                25
  D. Significant Audits From Prior Reports......                        16     9.   Criminal and Civil Recoveries.................. .....       25




                                                                                                                                                       v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-                               No. 96-829 relative to thc 1980 Supplemental Appro-
     ments prescribed by the Inspector General Act of 1978                                 priations and Rescission Bill is also cross-referenced to
     to the specific pages where they are addressed. The in-                               the appropriate page of the report.
     formation requested by the Congress in Senate Report



                                                                Source
         Inspector General Act
         1. Section 4(a)(2)--Review of Legislation and Regulations ..................................... ..                                   26
         2. Section 5(a)(1 )--Significant Problems, Abuses, and Deficiencies ........................ .                                   2,8,12,15
         3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
            Abuses, and Deficiencies .................................................................................... ..              2,8,12,15
         4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ........................ ..                                         5,10,14,16
         5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............................. ..                                      24
         6. Sections 5(a)(5) and 6(b)(2)--Summary of Instances Where Information Was
            Refused .................................................................................................................   None This Period
         7. Section 5(a)(6)-List of Audit Reports ................................................................. ..                        32
         Senate         No. 96-829
         1. Resolution of Audits ............................................................................................. ..             20
         2. Delinquent Debts ...................................................................................................              45




vi
SECTION I-ORGANIZATION, STAFFING,
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Office      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
of Inspector General (OIG) was established within the         Worth, San Francisco, and Washington, D.c. In addition
General Services Administration (GSA) on October 1,           to another field office in Auburn, the Office of Audits has
1978. As currently configured, the OIG consists of four       a resident office in Denver. The Office of Investigations
offices that function cooperatively to perform the mis-       has resident offices in Auburn, Cleveland, St. Louis, Den-
sions legislated by the Congress.                             ver, and Los Angeles.


                                                              c.    Staffing and Budget
A. Organization                                               The OIG's approved fiscal year (FY) 1987 budget is ap-
The OIG utilizes a functional organizational structure to     proximately $21.1 million, an increase of $1.8 million
provide nationwide coverage of GSA programs and activ-        over FY 1986. Some $10 million was available for obliga-
ities. It consists of:                                        tion during the first half of FY 1987.

  e   The Office of Audits, a multidisciplinary unit          Although a personnel ceiling of 452 full-time equivalent
      staffed with financial and technical experts who        positions has long been established as a maximum em-
      provide comprehensive coverage of GSA operations        ployment limit for the OIG, only 430 positions are sup-
      (internal or management audits) as well as GSA          portable for the entire period of the fiscal year. This
      contractors (external or contract audits). Headquar-    period, the OIG initiated recruitment efforts to bring
      ters divisions direct and coordinate the audit pro-     staffing to the 430 level, and also took steps to provide our
      gram, which is performed by the ten field audit         staff with the logistical support they need to be as pro-
      offices and one resident office.                        ductive as possible.

  e   The Office of Investigations, an investigative unit     The OIG concluded FY 1986 with a total on-board
      that manages a nationwide program to prevent and        strength of 340 full time employees, our lowest staffing
      detect illegal and/or improper activities involving     level since 1979. At the start of FY 1987, a funding lapse
      GSA programs, personnel, and operations. Opera-         and a need to adjust OIG nationwide staffing allocations
      tions officers at headquarters coordinate and over-     in light of changing Agency programs served to temporar-
      see the investigative activity of nine field            ily delay our recruitment efforts. However, by the end of
      investigations offices and five resident offices.       the first half of FY 1987, the OIG had reached a staffing
                                                              level of 370 full time employees, a net gain of 30 during
  •   The Office of Counsel to the Inspector General, an      the 6-month period. This represents a considerable
      in-house legal staff that provides opinions and ad-     achievement, since recruitment processes typically in-
      vice on matters under OIG review. These attorneys       volve lags of 4 to 6 months between initiation of a recruit-
      also manage the civil referral system, formulate        ment action and actual employment of the applicant.
      OIG comments on existing and proposed legislation
      and regulations, and assist in litigation.              Based on current hiring and attrition rates, we expect to
                                                              reach a staffing level of at least 430 during the fourth
  •   The Office of Policy, Plans, and Management Sys-        quarter of the fiscal year. Our progress toward this goal is
      tems, a centralized unit that oversees the develop-     being facilitated by full implementation of our inter-
      ment of OIG poliCies and plans, evaluates the           agency agreement with the Office of Personnel Manage-
      operations of the other OIG components, provides        ment, which permits the use of OIG-conducted
      data systems support, and handles budgetary, ad-        pre-employment suitability investigations.
      ministrative, and personnel matters.
                                                              Relative to logistical support, the OIG has concentrated
                                                              on: locating sufficient office space for our field offices,
                                                              based on the GSA standard of 135 square feet per per-
B. Office Locations                                           son; and providing at least one microcomputer for every
                                                              three auditors/investigators. In addition, we have de-
The OIG is headquartered in Washington, D.C., at GSA's        veloped plans to implement the GSA Administrator's
Central Office building. Field audit and investigations of-   Quality Work Space Program at five regional OIG
fices are maintained in the following cities: Boston, New     locations.
    SECTION II-PUBLIC BUILDINGS SERVICE

    The Public Buildings Service (PBS) manages much of            percent involved allegations of white collar crimes. No-
    the Federal Government's real estate assets nation-           tably, a joint GSA OIG and FBI investigation resulted in
    wide. Its responsibilities extend from constructing,          the conviction of a GSA contractor on bribery charges.
    purchasing, and leasing space for Government use to           The contractor paid a GSA employee to overlook con-
    maintaining and protecting that space. In the first half      tract irregularities.
    of FY 1987, the total available funding authority of the
    Federal Buildings Fund was almost $2.1 billion. Dur-          Another investigation resulted in a false claims convic-
    ing the same period, PBS obligated almost $1.4 billion        tion. A former manager of a construction company had
    of these funds.                                               submitted forged and inflated invoices to GSA for
                                                                  smokestack repairs.
    Commensurate with this level of activity, the OIG de-
    voted some 47,997 direct staffhours pursuing 436 audit
    and investigative assignments. These figures reflect 39
    percent of total OIG direct staffhours and approxi-
    mately 44 percent of all work. assignments.                   B. Significant Audits and
                                                                     Investigations
    A. Overview of OIG Activity                                   This section summarizes significant internal audits
    This period, almost 69 percent of the internal audit re-      and investigations dealing with PBS. Significant pre-
    ports issued by the OIG addressed PBS programs and ac ..      award contract audits are presented in Section C.
    tivities. We presented findings relative to fire and safety
    issues, building purchases, repair and alteration proj-
    ects, and buildings management. Some of the more sig-         PCB Retrofill Project
    nificant reviews advised PBS managers of:
                                                                  As part of the ~IG's ongoing assessment of GSA's pro-
      ~   The problems associated with using a retrofill          gram to repair/replace electrical transformers contain-
          process to repair PCB contaminated electrical           ing polychlorinated biphenyls (PCBs), we examined a
          transformers.                                           transformer retrofill project at two Federal buildings.
      ~   The need to defer settlement on a building being        Retrofilling involves the replacement of PCB fluids,
          purchased by the Government until structural de-        which are toxic, non-biodegradable, and carcinogenic,
          sign concerns are resolved.                             with other chemicals.

      •   An unnecessary $209,000 project to rewire a             We found that the decision to retrofill the PCB trans-
          warehouse.                                              formers was not necessarily the best solution to the
                                                                  problem. We noted that retrofilling is a fairly new, un-
    PBS is now formulatinglimplementing corrective ac-            proven process         the Environmental Protection
    tions for these reviews based on our recommendations.         Agency has never formally endorsed. Eventually, there-
                                                                  fore, replacement of the transformers may.still be nec-
    The OIG also issued 95 contract audits relative to PBS
                                                                  essary. Moreover, retrofilling is a lengthy process that
    programs, many evaluating construction claims,
                                                                  carries several major drawbacks including increased
    change orders, and lease escalation proposals. In total,
                                                                  fire      and rapid generation of PCB waste.
    these audits recommended cost avoidances and cost re-
    coveries of almost $28 million. Notably, utilization of       Relative to fire risks, we found that the replacement
    information contained in OIG reports resulted in:             fluids possess a lower flash point. While 110t generally a
                                                                  problem in low use situations, a fire could result if, in
      •   The Department of Justice negotiating an agree-
                                                                  switching loads among transformers, one unit ap-
          ment yielding a $5 million cost avoidance on a
                                                                  proached capacity, thereby allowing its temperature to
          contractor claim.
                                                                  rise.
      ~   PBS management successfully negotiating
                                                                  In our report dated November 25, 1986, we offered four
          $750,000 in pricing concessions on a sprinkler
                                                                  recommendations to the Regional Administrator to
          system contract.                                        correct these and other deficiencies. These included
    Joint OIG audit and investigative effort resulted in a        recommendations to:
    $65,000 consent judgment against a building renova-
                                                                    <II   Begin design work for the replacement of all PCB
    tion contractor. The OIG review had disclosed that con-
                                                                          contaminated transformers at the two buildings
    tractor claims contained fabricated costs or were for
                                                                          in the event that the level of PCBs in the trans-
    work never performed.
                                                                          formers has not been reduced, or cannot be main-
    OIG investigators completed 81 cases involving PBS                    tained, below 50 parts per million after the
    programs, operations, or employees. Of these cases, 45                IS-month retrofill process is completed.

2
  •   Develop policies and procedures to assure that          The Regional Administrator submitted responsive ac-
      personnel responsible for operating and maintain-       tion plans for implementing the report recommenda-
      ing the retrofilled transformers are aware of the       tions. Resolution was achieved on March 31, 1987.
      potentially hazardous situation if loads are
      switched between transformers in a manner that
      could create overheating.
The Regional Administrator submitted responsive ac-
tion plans for three recommendations; a revised action        Bribery Convictions
plan was requested for the remaining recommendation.
                                                              On March 5,1987, a GSA lawn maintenance contractor
                                                              was sentenced in U.S. District Court after pleading
$65,000 Civil Settlement                                      guilty to bribing a GSA employee. He was sentenced to
                                                              2 years in prison (suspendedl, 3 years probation, and a
On February 6, 1987, a building renovation contractor         $5,000 fine. He was also ordered to pay $40,000 in res-
signed a consent judgment and paid $65,000 to the Gov-        titution to GSA.
ernment to settle potential civil fraud issues. The Gov-      The sentencing resulted from a joint GSA OIG and
ernment alleged that the contractor had submitted false       FBI investigation. The investigation found that the con-
claims for renovation work performed on a Federal             tractor had paid $1,500 to the GSA employee. In return,
building.                                                     the employee extended favorable treatment to the con-
The OIG's involvement in this matter began with an            tractor, including overlooking contract performance
audit that detected questionable claims. During the           irregularities.
course of the subsequent OIG investigation, a confiden-       Previously, the GSA employee had pled guilty to ac-
tial informant alleged that the claims contained fabri-       cepting bribes and, on November 21, 1986, was sen-
cated costs and/or involved work never performed. The         tenced to 3 years probation, fined $5,000, and ordered to
informant further alleged that the contractor bribed          pay $1,500 in restitution and to perform 500 hours of
GSA employees to approve the fraudulent claims.               community service. In addition, he was removed from
When faced with these allegations, the contractor             his GSA employment effective March 14, 1986.
agreed to cooperate with the Government and admitted
paying $13,000 to a GSA employee.
Relative to associated criminal charges, in 1982 the
contractor had pled guilty to the charge of conspiracy
and was sentenced. The GSA employee was sentenced
                                                              Proposed Electrical Project Questioned
after pleading guilty to the charge of accepting bribes. In
addition to these remedies, the contractor was debarred       As part of a review of the Repair and Alteration Work
                                                              Item Inventory in two GSA regions, the OIG analyzed
for 3 years, the employee resigned his GSA position,
                                                              the necessity of a $209,000 project to rewire a ware-
and a $13,000 civil judgment was entered against the
                                                              house. The project provided for replacing frayed and
employee.
                                                              brittle wiring, placing new wiring in conduit, and up-
                                                              grading electrical panels.
Design Deficiencies                                           After inspecting the warehouse, the OIG determined
                                                              that: no frayed or brittle wiring existed; most wiring
This period, the OIG initiated a review of the Building       met the National Electrical Code requirements and was
Purchase Program, GSA's vehicle for acquiring pri-            in conduit or flexible metallic armored cable; and cir-
vately built buildings. As part of this review, we ex-        cuit breaker panels were in good condition. We did
amined documents relating to the structural design of a       identify some minor code violations concerning four
building GSA had agreed to purchase.                          missing junction box covers, one light fixture fed by
                                                              wiring not in conduit, and some receptacles not fed by
We found that GSA inspectors had identified potential         the correct breakers.
design weaknesses that could result in the acquisition
of a building with structural deficiencies. Since the OIG     Based upon the condition of the electrical equipment in
believed that these design concerns would not be re-          the warehouse, we concluded that there was insuffi-
solved prior to settlement on the building, we issued an      cient justification to proceed with the project. Conse-
interim audit report. The October 31, 1986 report rec-        quently, our November 3, 1986 report recommended
ommended that the Regional Administrator:                     that the Assistant Regional Administrator, Office of
                                                              Public Buildings and Real Property, take action to:
  •   Resolve all major structural design concerns prior
      to going to settlement.                                   •   Delete the work item from the inventory, if the
                                                                    project cannot be justified; and
  •   Reschedule the settlement to allow adequate
      time for GSA to receive and evaluate all requested        •   Correct the minor electrical code violations.
      analyses and resolve all major deficiencies.
                                                              The Regional Administrator agreed to cancel the proj-
  •   Require the seller to fix known correctable struc-      ect and submitted responsive action plans. Resolution
      tural design defects prior to settlement.               was achieved on March 5, 1987.
                                                                                                                          3
    False Claims Conviction                                     fully negotiating priciFg concessions in that amount
                                                                from an automatic sprinkler system firm. The com-
    On January 30, 1987, a former manager of a construc-        mitment stemmed from an OIG audit of the firm's
    tion company under contract to GSA was sentenced in         $3.7 million pricing proposal for the installation of an
    U.S. District Court after pleading guilty to submitting     automatic sprinkler system in a Federal building.
    a false claim. He was sentenced to 1 year in prison (sus-
                                                                The October 2, 1986 audit report advised the contract-
    pended), 3 years probation, a $3,000 fine, and 300 hours
                                                                ing officer that costs contained in the contractor's pro-
    of community service.
                                                                posal were overstated and/or unallowable. We therefore
    The conviction resulted from an OIG investigation in-       questioned $868,000, primarily in the following cost
    itiated after a GSA employee advised that questionable      categories: overhead, direct labor, and subcontractor
    documents had been submitted in connection with a           costs.
    contract for smokestack repairs. The investigation
    found that the former manager had forged subcontrac-
    tor invoices and inflated cost figures by $19,000.          $1.2 Million Recommended For Avoidance
    The OIG has recommended debarment of the subject.
                                                                At the request of the Regional Administrator, the OIG
                                                                audited a proposal for alleged damages due to Govern-
                                                                ment-caused delays on the construction of a Federal
                                                                building. The contractor claimed that change orders
                                                                and other Government actions extended the contract
    c.   Significant Preaward Audits                            work period by 299 days, resulting in increased costs of
                                                                $1.6 million.
    The OIG's preaward audit program provides informa-
    tion to contracting officers for use in negotiating con-    Our October 10, 1986 audit report advised the contract-
    tracts. The pre-decisional, advisory nature of preaward     ing officer that costs contained in the contractor's
    audits distinguishes them from other audits.                claim were overstated or unallowable. We therefore
                                                                questioned $1,217,328 of the claimed amount for: la-
                                                                bor, labor and material escalation, interest, overhead,
                                                                and profit.
    $5 Million Avoided Through Preaward Audit                   The contracting officer agreed with our position and the
                                                                report was resolved on December I, 1986. Negotiations
    Based on a request from the Department of Justice,
                                                                are currently underway with the cor tractor.
    the OIG audited a proposal for alleged damages due to
    Government-caused delays on the construction of a
    Federal building. The contractor and subcontractors
    claimed that Government actions extended the con-           $1.2 Million of Proposed Rent Increase
    tract work period by 247 days, resulting in increased       Questioned
    costs of $3.2 million. The contractor also requested in-
    terest of $3 . 3 million, making the total amount claimed   An OIG audit of a $2.1 million lease escalation proposal
    $6.5 million.                                               determined that the proposed escalation did not fully
                                                                comply with the terms of the lease. In our report dated
    The January 17 and January        1986 audit reports ad-    December 8, 1986, we advised the contracting officer
    vised the Department of Justice that costs contained in     that the proposal included operating costs not subject
    the claim were overstated and/or unallowable. We            to escalation as well as unsupported costs. We further
    questioned claimed costs for: labor hour              ex-   advised that the use of historical data, rather than the
    tended overhead, concrete and design forming,         ex-   estimates employed by the lessor, yielded significantly
    penses, and general and administrative expense              lower cost figures. Also,     lessor computed his pro-
    allocations. On December        1986, the Department of     posal to reflect a 6-year escalation period rather than
            utilized this information, along with GSA tech-     the 5-year term specified by the lease. Based on these
    nical evaluations, to negotiate an agreement whereby        findings, we recommendcd adjustmcnts totaling
    the contractor received $900,000 in full settlement of      $1.2 million.
    its $65 million claim. Of the $5.6 million avoided,
    $5 million was attributable to the audit reports and sub-   Negotiations with the lessor are currently underway.
    sequent accounting counsel provided by the auditors.

                                                                D. Statistical Highlights
    $750,000 Avoidance
                                                                The following table compares OIG activity and accom-
    On November 17, 1986, GSA management committed              plishments within PBS to the overall GSA totals for the
    itself to avoid expenditures of $750,000 after success-     period.




4
                                                 Activity                                                         PBS          All GSA
     Audit Reports Issued ............................................................................... ..       168            321
     Recommended Cost Avoidance ............................................................... .              $27,496,640   $204,194,660
     Recommended Cost Recovery ................................................................ .                 $313,513    $10,641,885
     Management Commitments to Avoid Costs ............................................ ..                     $24,776,952    $92,404,958
     Management Commitments to Recover Funds ....................................... ..                           $371,318     $2,840,577
     Percentage of Recommended Cost
       Avoidance Agreed to by Management ................................................. ..                       90             89
     Percentage of Recommended Cost
       Recovery Agreed to by Management.. .................................................. .                     98              75
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..                                    2               3
     Implementation Reviews Finding Unimplemented Recommendations .... ..                                           5               8
     New Investigative Cases ......................................................................... ..          69             183
     Criminal Referrals (Subjects) .................................................................. ..           38              80
     Civil Referrals (Subjects) .......................................................................... .        3              16
     Administrative Referrals (Subjects) ....... ~ ................................................. ..            77             160
     Suspension/Debarment Referrals (Subjects) ........................................... .                       27              75
     Indictments/Informations/Complaints ....................................................... .                  6              24
     Successful Criminal Prosecutions ........................................................... ..                4              19
     Civil Settlements/Judgments ................................................................... ..             1               6




E. Significant Audits From Prior                                                  Seven of the eight remaining recommendations, which
                                                                                  involve energy reduction measures, were scheduled for
   Reports                                                                        implementation by March 1987. As of March 31, 1987,
                                                                                  the Audit Resolution and Internal Controls Division
                                                                                  had not received documentation that the recommen-
                                                                                  dations had been implemented.
Under GSA's audit resolution system, the OIG is re-                               The remaining recommendation, which involves per-
sponsible for ensuring resolution of audit recommen-                              formance of energy conservation building studies, is to
dationc~, while the Audit Resolution and Internal
                                                                                  be fully implemented by April 1990.
Controls Division, Office of Administration, is respon-
sible for ensuring implementation of resolved audit
recommendations. That office therefore furnished the
status information on implementation presented                                    Proposed Lease Extension Questioned
herein.
Thirteen audits highlighted in prior Reports to the                               Period First Reported: April 1, 1986 to September 30, 1986
Congress require action by PBS management before                                  This July 10, 1986 review found that the absence of ter-
they are fully implemented. Four reports are not being                            mination rights in a proposed lease extension could ob-
implemented in accordance with established mile-                                  ligate GSA to pay operating expenses and rental for
stones; the remaining nine are being implemented in                               vacant space. The report contained five recommenda-
accordance with established milestones.                                           tions; four have been implemented.
                                                                                  The remaining recommendation, which involves secu-
                                                                                  rity issues, was scheduled for implementation by Oc-
1. Significant Audits Not Being                                                   tober 1986. An extension was granted and complet.ion
                                                                                  was rescheduled for March 31,1987. As of that date, the
    Implemented According to Established                                          Audit Resolution and Internal Controls Division had
    Milestones                                                                    not received confirmation that it had been implemented.


Energy Conservation in Leased Space                                               Lease Enforcement
Period First Reported: April 1, 1986 to September 30,1986                         Period First Reported: October 1, 1985 to March 31, 1986
This review of energy usage in lea,sed buildings advised                          Two OIG reviews found that Government costs under
GSA that, while notable progress had been made in                                 two leases were significantly higher than expected be-
identifying and monitoring energy usage problems,                                 cause contract specifications were not being met. As of
additional opportunities for energy conservation still                            March 31, 1987, one report was fully implemented. The
existed. Accordingly, the OIG made ten recommenda-                                other report contained six recommendations to en-
tions; two have been implemented.                                                 hance enforcement actions; one has been implemented.
                                                                                                                                               5
    Two of the remaining five recommendations were               (2) revisions to the Fire 2nd Safety Program Handbook.
    scheduled for implementation by February 16, 1987. As        Both are scheduled for completion in December 1987.
    of M.arch 31, 1987, the Audit Resolution and Internal
    Controls Division had not received documentation
    confirming that implementation actions had been com-         Administration of Cleaning Contracts
    pleted. The remaining three recommendations are
    scheduled for completion in December 1987.
                                                                 Period First Reported: October 1, 1985 to March 31, 1986
                                                                 This OIG review concluded that regional controls over
    Design Deficiencies at a Federal Building                    cleaning contracts required strengthening. Conse-
                                                                 quently, we made seven recommendations to correct
    Period First Reported: April 1, 1985 to September 30, 1985   the identified deficiencies; six have been implemented.
    This July 31, 1985 review of the mechanical mainte-          The remaining recommendation involves the collec-
    nance contract at a Federal building identified major de-    tion of overpayments to a GSA contractor. On July 14,
    sign deficiencies in the lighting and heating systems.       1986, a demand letter was written and an account re-
    None of the three recommendations contained in the           ceivable was established in the amount of $137,082.
    report have been implemented.                                The contractor has since filed an appeal with the GSA
                                                                 Board of Contract Appeals.
    The three recommendations involve: (1) determining if
    the architect/engineering (A/E) firm was negligent dur-
    ing design and then taking appropriate administrative
    action or seeking damages; (2) evaluating alternatives       Excessive Tax Escalation Payments
    for increasing lighting levels and selecting the most
    cost-effective option; and (3) determining the cost effec-   Period First Reported: Apri11, 1985 to September 30,1985
    tiveness of retrofitting the heating system so that it is    This June 4, 1985 review disclosed that the tax escala-
    energy efficient. The three recommendations were orig-       tion clause contained in GSA leases, coupled with some
    inally scheduled for completion in February 1986. Ex-        local taxing practices, resulted in exorbitant Govern-
    tensions were granted to May 1986, since PBS was             ment tax escalation payments. The report contained
    awaiting completion of an A/E Deficiency Committee           eight recommendations; five have been implemented.
    report.
                                                                 The three remaining recommendations generally in-
    Based on the Committee report, PBS submitted revised         volve specific actions to reduce GSA's liability for ex-
    action plans to the OIG. Upon reviewing the revised ac-      cessive tax escalation payments. Two of the
    tion plans, the OIG expressed concern with manage-           recommendations were originally scheduled for com-
    ment's intent relative to the first recommendation.          pletion in November 1985 and the       in March 1986.
    Therefore, on September 16, 1986, we requested that          Implementation dates for all three recommendations
    the Commissioner reevaluate planned actions in light         have been renegotiated to June 1987.
    of our concerns.
    On December 2,1986, revised action plans, showing all
    recommendations scheduled for implementation by              More Improvements Needed in Lease Award
    March 31, 1987, were submitted. As of that date, the         Procedures
    Audit Resolution and Controls Division had not re··
    ceived documentation confirming that implementa-             Period First Reported: October 1,1984 to March 31, 1985
    tion actions had    completed.
                                                                 This consolidated report identified significant prob-
                                                                 lems adversely affecting lease awards in spite of recent
                                                                 program improvements implemented by PBS. The
    2. Significant Audits Being Implemented                      report contained 20 recommendations; 17 have been
       According to Established Milestones                       implemented.
                                                                 Implementation dates for the remaining three recom-
                                                                 mendations, which involve price analysis processes,
    Fire and Safety Program                                      updating the leasing handbook, and the development
                                                                 of automated solicitations, have been renegotiated to
    Period First Reported: October 1,1985 to March 31,1986       September 1987.
    This multiregional review of GSA's Fire and Safety Pro-
    gram advised GSA management that, while many sig-
    nificant improvements had been made in the program,          Fire and Life Safety Systems
    further enhancements were necessary. Accordingly,
    the OIG made eight recommendations; six have been            Period First Reported: Apri11, 1984 to September 30,1984
    implemented.
                                                                 This consolidated report identified the need for GSA ac-
    The remaining two recommendations involve: (1) train-        tion to ensure the proper functioning of fire and life
    ing of regional and buildings operating personnel and        safety systems in Federal buildings throughout the

6
country. The report contained ten recommendations;         plementation is now scheduled for various dates
six have been implemented.                                 between April 1987 and July 1987.
Three recommendations, which require action by the
regions, were originally due for completion between
October 1985 and January 1986. Extensions have been        Implementation of the Public Buildings
granted and all three are now due in October 1987. The     Cooperative Use Act
other recommendation, requiring replacement of a fire
alarm system, is scheduled for implementation by           Period First Reported: October 1, 1982 to March 31, 1983
November 1987.                                             Our review disclosed a number of problems associated
                                                           with GSA's implementation of the Public Buildings
                                                           Cooperative Use Act of 1976. The report contained 18
                                                           recommendations; 15 have been implemented.
Fire and Life Safety Systems
                                                           The remaining three recommendations involve: (1) de-
Period First Reported: October 1,1983 to March 31,1984     velopment of policy on outleasing; (2) assignment of
                                                           qualified experts on outleasing projects involving com-
A series of seven OIG reviews identified deficiencies in
                                                           mercial malls; and (3) development of policy and pro-
fire and life safety systems in GSA-controlled space.
                                                           cedures for outleasing of commercial malls.
Four reports were fully implemented as of March 31,
                                                           Recommendation (1) was originally due for implemen-
1987. The remaining 3 reports contained 11 recommen-
                                                           tation in August 1983. The second and third recom-
dations; 8 have been implemented.
                                                           mendations were originally scheduled for completion
Implementation of the other three recommendations is       in May and September 1983, respectively. At least ten
generally proceeding in accordance with the action         successive extensions have been granted on each rec-
plans, although delays have been experienced and re-       ommendation. All three recommendations are now
vised implementation dates have been granted. Full im-     scheduled for completion in April 1987.




                                                                                                                      7
    SECTION III-FEDERAL SUPPLY SERVICE

    The Federal Supply Service (FSSj operates a Govern-
    ment-wide service and supply system that contracts
                                                                    B. Significant Audits and
    for and distributes billions ojdollars worth of supplies,
    materials, and services for customer agencies each
                                                                       Investigations
    year. FSS also controls GSA's personal property pro-            This section summarizes significant internal and post-
    gram. In the first half of FY 1987, FSS obligated approx-       award audits and investigations dealing with FSS.
    imately $76 million in direct operating expense                 Significant preaward contract audits are presented in
    appropriations. Estimated sales through the General             Section C.
    Supply Fund during the same period were almost
    $1 billion.
    Consistent with this level of activity, the GIG ex-
    pended some 48,823 direct staffhours pursuing 356 au-           $680,000 Civil Settlement
    dit and investigative assignments. These statistics
    reflect almost 40 percent of total GIG direct staffhours        On January 29, 1987, a laboratory equipment supply
    and approximately 36 percent of all work assignments.           firm entered into a settlement agreement with the Gov-
                                                                    ernment whereby it agreed to pay $680,000 to settle po-
                                                                    tential civil fraud issues. The full amount was refunded
                                                                    to the Government at settlement.
    A. Overview of OIG Activity                                     Joint OIG audit and investigative effort disclosed that
                                                                    the firm supplied incomplete and inaccurate pricing
    In a series of internal audit reports issued this period,       data to GSA contracting officials. These data were re-
    the OIG presented its findings in a variety of FSS pro-         lied upon by GSA in negotiating three contracts be-
    gram areas, including contract administration, product          tween 1979 and 1983.
    warranties, and vehicle sales. Two reports were espe-
    cially noteworthy:                                              The matter was referred to the U.S. Attorney, which de-
                                                                    clined criminal prosecution, and the Department of Jus-
      IjJI   Analysis of Federal usage of a multiple award sched-   tice, which accepted the case for civil litigation. The
             ule contract for prefabricated structures found that   settlement agreement was negotiated 1:.y representatives
             most items purchased were not standard commer-         of the Department of Justice Civil Division and the GSA
             cial products. We concluded that individual agency     OIG. Debarment action is under consideration.
             procurements would prove more cost beneficial
             than multiple award schedule contracting.
      •      Evaluation of the quality of batch-produced ma-
             terials disclosed that GSA had difficulty obtaining    Multiple Award Schedule Contract
             adequate compensation for deficient products.          Administration
             We attributed the problem to contracts lacking
             equitable adjustment provisions.                       This period, the OIG completed a review of the appro-
    OIG contract coverage of FSS continued to emphasize             priateness of using a multiple award schedule (MAS)
    preaward reviews, especially of multiple award sched-           contract to meet Federal agencies' needs for prefabri-
    ule contracts. In 80 contract reports issued this period,       cated structures. Procurement authority for this con-
    we recommended $8.1 million in cost avoidances and              tract, with an estimated value of $32 million over its
    $4.6 million in cost recoveries.                                3-year term, resides in one GSA region.

    Joint OIG audit and investigative work resulted in a            MAS contracts yield significant savings to the Govern-
    $680,000 civil fraud settlement. The settlement                 ment when the commodity is a common-use item,
    stemmed from        ~iG's disclosure that incomplete
                                                                    such as a desk, for which individual purchasers do not
    and inaccurate pricing data had been submitted to GSA           have unique product specifications. The savings accme
    for negotiation purposes.                                       from the fact that, in bidding for an MAS contract,
                                                                    offer discounts off commercial price lists, thereby facil-
    The OIG completed 63 investigative cases involving              itating straightforward price comparisons and negotia-
    FSS programs, operations, or employees. Notably, one            tion of prices               the Government's unique
    investigation, conducted jointly with the FBI, resulted         position in the marketplace.
    in the convictions of five contractor employees on theft
    charges. The employees sold Federal property stolen             Our review found that most items sold under the pre-
    from a GSA supply facility operated by the contractor.          fabricated structure schedule were not standard com-
                                                                    mercial products. In most instances, we found that user
    Another investigation, conducted jointly with the Na-           agencies were ordering specially designed buildings
    val Investigative Service and the FBI, resulted in a            with-widely varying specifications. As a result, procur-
    $60,000 civil settlement with a firm and its president.         ing agencies were paying disparate           £I, because
    The firm had fraudulently overbilled the Government             each purchase was unique, there was no means of de-
    for equipment repairs.                                          termining whether the prices were reasonable.
8
The OIG believes that individual agency procurements,        gion was unable to obtain full compensation for deficient
rather than the MAS contract, would provide a more ap-       materials in half of the transactions reviewed because
propriate means for achieving overall price improve-         contract warranty clauses lacked an equitable adjustment
ments. Therefore, in our December 15, 1986 report, we        provision. Without this provision, GSA can seek reme-
recommended that the Assistant Regional Administra-          dies only for material retained by users and reported as de-
tor, Federal Supply Service:                                 ficient, even though it is generally assumed that, if a
                                                             portion of a batch is deficient, the entire batch is defi-
  •    Reevaluate the appropriateness of using MAS           cient. There is no recourse against suppliers when cus-
       contracts to provide Federal agencies with prefab-    tomer agencies use the material, not realizing it is
       ricated structures.                                   deficient, or discard it as unusable.
  •    Submit the results of the reevaluation to the Pro-    Recognizing that this finding could carry nationwide
       curement Management Division for their review         implications, the OIG issued a letter report to the Com-
       and concurrence.                                      missioner, FSS. The October 31, 1986 report recom-
  ..   Depending on the results of the reevaluation,         mended that:
       have the contracting officer take immediate ac-         .. Warranty clauses be revised to include an equita-
       tion to suspend further contract awards and to             ble price adjustment provision.
       cancel already awarded contracts by exercising
       the contract cancellation clause.                       ..   Procedures for exercising warranty actions be re-
                                                                    vised in order to obtain compensation for an en-
The Regional Administrator submitted responsive                     tire batch even when deficient material is not
plans for implementing the report recommendations.                  reported by user agencies.
Resolution was achieved on March 13, 1987.
                                                               .. All contract and quality assurance personnel be
                                                                  made aware of the effects and application of each
Contractor Employee Thefts of Government                          warranty clause.
Property                                                     The Commissioner provided responsive action plans
                                                             for implementing the report recommendations. Reso-
This period, five employees of a firm under contract to      lution was achieved on February 3, 1987.
GSA were convicted on charges of theft of Government
property. The employee who directed the theft ring was
sentenced to 1 year in prison, 3 years probation, and
$1,600 in restitution. A second subject was sentenced        $60,000 Civil Settlement
to 10 months in prison; and a third to 2 years probation
and $200 in restitution. Sentencing of the remaining         On December 30, 1986, the Government entered into a
two subjects is pending.                                     civil settlement agreement with an equipment repair
                                                             contractor and its president. Under the terms of the set-
The convictions resulted from a joint GSA OIG and FBI        tlement, the president paid $60,000 to settle his poten-
investigation into missing property at a GSA supply          tial civil liability to the Government.
distribution facility that was managed and operated by
a contractor. The investigation was initiated after a        An OIG investigation, conducted jointly with the Na-
GSA employee advised the OIG that stock was inappro-         val Investigative Service and the FBI, disclosed that the
priately being written off as lost. Later, a source inside   contractor had overbilled the U.S. Navy in the amount
the facility informed investigators that an independent      of $112,404.The firm, which repaired and rehabilitated
trucker had been approached by a contractor employee         heavy equipment under a GSA contract, fraudulently
to purchase stolen Government property.                      charged non-Government work hours to Government
                                                             jobs and transferred work hours among Government
Undercover agents, posing as truckers, later purchased       jobs in order to avoid ceiling billing limitations.
Federal property from the contractor employee on four
separate dates, leading to his arrest. The other four de-    Relative to criminal charges, the company and its pres-
fendants were arrested for aiding and abetting in the        ident pled guilty to submitting false statements in Oc-
scheme by obtaining goods from the warehouse and load-       tober 1985. The firm was fined $1,000; the president
ing them onto trucks in exchange for cash payments.          was sentenced to 2 years imprisonment (suspended) and
                                                             2 years probation, and fined $5,000. GSA debarred both
                                                             parties from conducting business with the Government
Product Warranties                                           for 3 years, effective November 4, 1985.

GSA contracts for some types of supplies, such as paint,
solvents, and cleaners, that are produced by a batch
process. Under such contracts, many of GSA's cus-
tomer agencies may receive materials from the same
                                                             c.     Significant Preaward Audits
batch.
                                                             The OIG's preaward audit program provides informa-
This period, the OIG evaluated one GSA region's actions      tion to contracting officers for use in negotiating con-
to resolve quality deficiencies with batch-produced ma-      tracts. The pre-decisional, advisory nature of preaward
terials valued at $176,000. The review found that the re-    audits distinguishes them from other audits.
                                                                                                                            9
     $837,000 Avoidance Through Pre award                                                cording instruments and laboratory equipment. Esti-
     Audit                                                                               mated sales under the contract are $3.2 million.
                                                                                         In the February 12, 1987 audit report, we advised the
     In early 1987, GSA management committed itself to                                   contracting officer of commercial discounts not dis-
     avoid expenditures of $837,000 after successfully ne-                               closed in the firm's offer to GSA. We further advised
     gotiating pricing concessions in that amount from a                                 that the firm offered commercial customers product
     stacking pallet firm. The commitment stemmed from                                   warranties greater than those disclosed to GSA. Based
     an OIG audit of the firm's $7 million pricing proposal in                           on these findings, we recommended a $1.3 million cost
     response to a GSA solicitation for stacking pallets and                             avoidance.
     frames.
                                                                                         We are awaiting the contracting officer's position on
     The June 4, 1986 audit report advised the contracting                               the questioned costs.
     officer that the cost or pricing data contained in the
     proposal were overstated and/or unallowable. We
     questioned $1 million of overhead, selling and admin-
     istrative expense, and cost of capital.

                                                                                         D. Statistical Highlights
     Preaward Questions $1.3 Minion
                                                                                         The following table compares OIG activity and accom-
     The OIG evaluated discount schedule and marketing data                              plishments within FSS to the overall GSA totals for the
     submitted in response to a GSA solicitation for graphic re-                         period.



                                                                                                                       FSS          All GSA

           Audit Reports Issued ................................................................................ .       87            321
           Recommended Cost Avoidance ............................................................... .              $8,106,628   $204,194,660
           Recommended Cost Recovery ................................................................ .              $4,599,683    $10,641,885
           Management Commitments to Avoid Costs ............................................ ..                     $4,575,000    $92,404,958
           Management Commitments to Recover Funds ....................................... ..                          $696,664     $2,840,577
           Percentage of Recommended Cost
             Avoidance Agreed to by Management.. ................................................ .                     69              89
           Percentage of Recommended Cost
             Recovery Agreed to by Management.. ................................................. ..                    54              75
           Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..                                                   3
           Implementation Reviews Finding Unimplemented Recommendations ..... .                                          2               8
           New Investigative Cases .......................................................................... .         62             183
           Criminal Referrals (Subjects) ................................................................... .          30              80
           Civil Referrals (Subjects) .......................................................................... .       6              16
           Administrative Referrals (Subjects) ......................................................... ..             47             160
           Suspension/Debarment Referrals (Subjects) ........................................... .                      40              75
           Indictments/Informations/Complaints ....................................................... .                18              24
           Successful Criminal Prosecutions ........................................................... ..              15              19
           Civil Settlements/Judgments .................................................................... .             4              6



     E. Significant Audits From Prior                                                   Two significant audits from prior Reports to the Con-
                                                                                        gress are not implemented. Both are being imple-
        Reports                                                                         mented in accordance with established milestones.

     According to GSA's audit resolution system, the Audit                              Operation of an Industrial Products Store
     Resolution and Internal Controls Division, Office of
     Administration, is responsible for ensuring implemen-                              Period First Reported: Apri11, 1986 to September 30,1986
     tation of resolved audit recommendations. Therefore,
     that office furnished the status information on imple-                             This OIG review concluded that inventory controls at
     mentation presented herein.                                                        an industrial products store required strengthening. Ac-




10
cordingly, we made 22 recommendations; 20 have been           system identified internal control weaknesses that
implemented.                                                  could result in improper and undetected changes to
                                                              master files, unauthorized entry to the system, and in-
The remaining recommendations require: (1) transfer of        adequate inventory control. The report contained eight
the bulk yard cash register to the main store; and (2) fix-   recommendations; seven have been implemented.
ing of responsibility for these controls. Full implemen-
tation of both these recommendations is scheduled for         The remaining recommendation requires preparation
July 1987.                                                    and approval of a clearly defined and documented sys-
                                                              tems development plan. It was originally due for imple-
Stronger Internal Controls Needed in                          mentation by November 1985; an extension to May
                                                              1986 was then granted. Currently, the recommendation
Customer Supply Center Automated System                       carries an open due date in order to accommodate an on-
                                                              going study of the Customer Supply Center's computer
Period First Reported: October 1, 1984 to March 31, 1985
                                                              system requirements. A new completion date will be
This review of the Customer Supply Center automated           established upon issuance of the study report.




                                                                                                                        11
     SECTION IV-INFORMATION RESOURCES
     MANAGEMENT SERVICE

     The Information Resources Management Service                 B. Significant Audits and
     (IRMS) coordinates and directs a comprehensive Gov-
     ernment-wide program for managing and procuring                 Investigations
     automated data processing (ADP) and telecommuni-
     cations equipment and services. In the first half of         This section summarizes significant internal and post-
     FY 1987, IRMS obligated an estimated $11 million in          award audits and investigations dealing with IRMS op-
     direct operating expense appropriations. Estimated           erations. Significant preaward contract audits are
     sales through the Federal Telecommunications Fund            presented in Section C.
     and the ADP Fund during the same period were almost
     $472 million.
     Collectively, the OIG expended some 14,946 direct            $1.75 Minion Civil Settlement
     staffhours pursuing 92 audit and investigative assign-
     ments. These figures reflect 12 percent of total OIG di-     On January 8, 1987, a contractor entered into a settle-
     rect staffhours and 9.4 percent of total work                ment agreement with the Government providing for
     assignments.                                                 payment of $1. 75 million to settle its potential civilli-
                                                                  ability in connection with excess charges. The overbill-
                                                                  ings took place under a series of contracts for electronic
                                                                  equipment that the firm held with IRMS between 1980
                                                                  and 1984.
     A. Overview of OIG Activity                                  The firm voluntarily disclosed the contract violations
                                                                  in January 1985. After comprehensive audit and inves-
     This period, OIG audit coverage of IRMS primarily fo-        tigation, which included quantifying the loss to the
     cused on its contracting activities, particularly pre-       Government, the OIG referred the case to the U.S.
     award audits of multiple award schedule contracts. We        Attorney.
     issued 38 contract audit reports recommending almost
     $43 million in cost avoidances and $5.7 million in re-       The U.S. Attorney, the Department of Justice Civil Di-
     coveries. Notably, one preaward highlighted this period      vision, and the GSA OIG participated in the settlement
     accounts for almost $28.7 million of our recommended         negotiations.
     avoidance.
     Internal coverage of IRMS programs and functions pri-        Purchase of Telephones and Services {POTS)
     marily focused on GSA's Purchase of Telephones and           Program
     Services (POTS) program. A series of reports assisted
     management in ensuring the reasonableness of contract        This period, the OIG continued to review GSA's POTS
     prices. For example, we found that a contractor was bill-    program. As part of this review, the OIG evaluated
     ing customer agencies for intercom buzzers as a sepa-        POTS usage in one GSA region.
     rate item, instead of considering the buzzers to be an
     integral phone feature.                                      Our review disclosed that a POTS contractor had re-
                                                                  quired a customer agency to purchase intercom buzzers
     The OIG also issued a consolidated report on the PCIE        for its phones as a separate item. We found that the GSA
     review of Federal Telecommunications System (FTS)            contracting officer (CO) had obtained an IRMS initial
     utilization (see Section VIII, Part B). The report con-      position that buzzers are a necessary feature, not an op-
     tained 28 recommendations to reduce Government-              tion. If this position is maintained, we estimate that the
     wide telecommunications costs.                               Government could recoup overcharges of over
     Joint OIG audit and investigative work resulted in a         $275,000.
     $1.75 million civil settlement with an IRMS contrac-         On October 20, 1986, the OIG issued an audit report to
     tor. The firm, which supplied electronic equipment,          the Commissioner, IRMS recommending that:
     voluntarily disclosed contract violations. The OIG
     quantified the losses suffered as a result of these viola-     41&   A final decision on intercom buzzers be issued.
     tions. The full amount of the settlement has been paid
     to the Government.
                                                                    41&   If the decision is that buzzers should be included
                                                                          at no extra cost, then action be taken to: (1) advise
     OIG investigators completed 6 cases this period involv-              COs and POTS vendors; and (2) notify customer
     ing IRMS programs, operations, and employees; most                   agencies so that action to recover overcharges
     involved white collar crimes.                                        may be taken.



12
On February 26, 1987, the Commissioner submitted ac-                           The contracting officer successfully negotiated the con-
tion plans. The OIG has requested further information                          tract and obtained $28.7 million in pricing concessions.
on the planned actions.


                                                                               Preaward Questions $1.7 Minion of Proposed
c.    Significant Preaward Audits                                              Costs
The OIG's preaward audit program provides informa-                             The OIG evaluated discount schedule and marketing
tion to contracting officers for use in negotiating con-                       data submitted in response to a GSA solicitation for the
tracts. The pre-decisional, advisory nature of preaward                        purchase, rental, maintenance, and repair of general
audits distinguishes them from other audits.                                   purpose ADP equipment and software. Estimated sales
                                                                               under the contract are $13.6 million.
Preaward Questions $28.7 Million of                                            In our December 17, 1986 audit report, we advised the
                                                                               contracting officer that the firm's discount and sales
Proposed Costs                                                                 data were unacceptable for negotiation purposes be-
                                                                               cause they did not properly disclose discounts granted
The OIG evaluated discount schedule and marketing
                                                                               to commercial end-user customers. Moreover, these un-
data submitted in response to a GSA solicitation for the
                                                                               disclosed discounts exceeded the best discounts offered to
purchase and rental of general purpose ADP equipment                           GSA. Under the terms of such a contract, GSA is entitled
and software. Estimated sales under the contract exceed
                                                                               to discounts at least equal to the best commercial cus-
several hundred million dollars.
                                                                               tomer in the same category. Accordingly, the auditors
In our February 24, 1987 audit report, we advised the                          recommended a cost avoidance of $1.7 million.
contracting officer of discounts offered to commercial
                                                                               Negotiations are currently underway with the contractor.
customers that were not disclosed in the firm's initial
offer to GSA. We also advised that the firm included a
risk factor in the proposed lease-to-buy base rate, al-
though risk is an element of profit already considered in
the base rate. In addition, we advised that some rental                        D. Statistical Highlights
items should be removed from contract consideration
unless the firm changes its position that these items are                      The following table compares OIG activity and accom-
not eligible for discounting. Based on these findings, we                      plishments within IRMS to the overall GSA totals for
recommended a $28.7 million cost avoidance.                                    the period.



                                              Activity                                                        IRMS            All GSA

     Audit Reports Issued ...................................................................', ............ .     48            321
     Recommended Cost Avoidance ............................................................... . $167,838,615              $204,194,660
     Recommended Cost Recovery ................................................................ .              $5,728,689    $10,641,885
     Management Commitments to Avoid Costs ............................................ .. $62,176,398                       $92,404,958
     Management Commitments to Recover Funds ....................................... ..                        $1,769,800     $2,840,577
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................................. .                      93            89
     Percentage of Recommended Cost
       Recovery Agreed to by Management... ................................................ ..                     83            75
     Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..                                    1             3
     Implementation Reviews Finding Unimplemented Recommendations .... ..                                                         8
     New Investigative Cases .......................................................................... .          12           183
     Criminal Referrals (Subjects) .................................................................. ..            9            80
     Civil Referrals (Subjects) .......................................................................... .        6            16
     Administrative Referrals (Subjects) ......................................................... ..               5           160
     Suspension/Debarment Referrals (Subjects) ........................................... .                                     75
     Indictments/Informations/Complaints ....................................................... .                               24
     Successful Criminal Prosecutions ........................................................... ..                             19
     Civil Settlements/Judgments .................................................................... .                           6




                                                                                                                                            13
     E. Significant Audits From Prior                           2. Significant Audhs Not Being
                                                                   Implemented According to Established
        Reports                                                    Milestones
     According to GSA's audit resolution system, the OIG
     is responsible for ensuring resolution of audit recom-
     mendations, while the Audit Resolution and Internal        Telecommunications Systems Management
     Controls Division, Office of Administration, is respon-
     sible for ensuring implementation of resolved audit        Period First Reported: October 1, 1985 to March 31, 1986
     recommendations. That office therefore furnished the       This OIG review concluded that IRMS needed to
     status information on implementation presented             strengthen its oversight role relative to Government
     herein.                                                    telecommunications systems. We therefore made 12
     Three IRMS audits highlighted in prior Reports to the      recommendations; 5 have been implemented.
     Congress have not been fully implemented. One report       Two of the seven remaining recommendations, which
     is not resolved; the remaining two are not being imple-    generally involve actions to improve agency procure-
     mented in accordance with established milestones.          ments of telecommunications systems, were scheduled
                                                                for implementation by December 31, 1986. The re-
                                                                maining five recommendations were scheduled for im-
     1. Unresolved Significant Audits                           plementation by March 31, 1987. As of this date, the
                                                                Audit Resolution and Internal Controls Division had
                                                                not received documentation confirming that any of the
     Erroneous Payment of Sales Tax                             seven recommendations had been implemented.

     Period First Reported: Apri11, 1986 to September 30,1986
     This OIG review found that GSA was erroneously pay-        Teleprocessing Services Program
     ing state sales tax on telecommunications equipment.
     As of March 31, 1987, the report was still unresolved.
                                                                Period First Reported: October 1, 1985 to March 31, 1986
                                                                This OIG review found that IRMS needed to strengthen
     The report contained recommendations to: (1) issue a
     memorandum to all contracting officers that the Gov-       its oversight role over payments for commercial data
     ernment, in most cases, is exempt from state sales tax;    processing services. Accordingly, we made one recom-
     and (2) instruct contracting officers to review POTS       mendation to assure verification of invoices by Federal
                                                                agencies.
     contracts to ensure incorporation of tax exempt clauses
     and, where not included, to recover any overpayments       The recommendation consisted of four parts; three are
     and modify the contract. On March 5, 1987, the Com-        complete. The remaining part was scheduled for imple-
     missioner, IRMS, submitted action plans for imple-         mentation by March 31, 1987. As of that date, the Audit
     menting the recommendations. The plans are currently       Resolution and Internal Controls Division had not re-
     under review.                                              ceived confirmation that it had been implemented.




14
SECTION V-OTHER GSA COVERAGE

Other GSA services and staff offices comprised the           vice contracts; however, the Agency was not following
focus for the remainder of the OIG's efforts this period.    the procedures for reporting in the FPDS. At the time of
The OIG devoted approximately 11,612 direct                  our review only one consulting service contract had
staffhours pursuing 93 audit and investigative assign-       been entered into FPDS. An attempt had been made to
ments within these other areas of GSA. These figures         enter a second contract; but the entry had been rejected
reflect 9.4 percent of total OIG direct staffhours and       due to an input error, and it was then placed on a sus-
approximately 9.5 percent of all work assignments.           pense file. We found no evidence that action had been
                                                             taken to enter the other three contracts. Further, the
                                                             Agency did not reconcile computer listings with indi-
                                                             vidual contract action reports submitted by the Regions
A. Overview of OIG Activity                                  and Services/Staff Offices to ensure entry of all contract
                                                             data into FPDS.
OIG coverage of the Federal Property Resources Ser-
vice, the Office of the Comptroller, the Office of           In our February 5, 1987 report, we recommended that
Administration, and other GSA organizations con-             the Associate Administrator for Acquisition Policy
sisted primarily of internal management reviews.             take action to:
These reviews resulted in findings and recommenda-             •   Assure compliance with established document
tions in areas such as consultant service contracts,               reporting procedures.
budget activities, printing operations, imprest funds,
and stockpile operations.                                      •   Enter the unrecorded contracts into the system.
Three especially noteworthy reviews aided manage-              •   Establish new procedures for reconciling total
ment in taking action to improve:                                  reported contract data with individual contract
                                                                   action reports.
  •   Reporting procedures over the use of consultant
      service contracts.                                     We are awaiting the action plans for implementing the
                                                             report recommendations.
  •   Fund controls over expenditures for building
      repairs.
  •   Operations at a printing facility.
The OIG also completed 29 investigations involving           MisdassiHcation of Funds
the personnel, programs, and operations of these other
GSA areas. One of these cases resulted in the convic-        In response to a request from the Regional Administra-
tion of a museum owner/president for theft of Federal        tor, the OIG evaluated regional use of Budget Activity
property.                                                    (BA) 61, Real Property Operations, to fund maintenance
                                                             repairs. We found that regional buildings management
                                                             field offices inappropriately used $140,628 of BA 61
                                                             funds to accomplish work properly chargeable to BA 54,
B. Significant Audits and                                    Repairs and Alterations. In our opinion, the misclassi-
                                                             fications were attributable to field office emphasis on
   Investigations                                            accomplishing needed work, with fund control being
                                                             given a secondary priority. While the misclassifications
This section summarizes significant internal audits          allowed the speedy accomplishment of projects the
and investigations involving the programs and opera-         field offices perceived as necessary, the continuation of
tions of the remaining GSA services and staff offices.       this practice could result in potentially serious conse-
                                                             quences regarding fund control.
                                                             In our March 2, 1987 report, we directed seven recom-
Reporting on Consultant Contracts                            mendations to the Assistant Regional Administrator,
                                                             Public Buildings Service, to correct identified deficien-
Section 1114 of the Money and Finance Act requires the       cies. These included recommendations to: correct iden-
Inspector General to submit to the Congress a yearly         tified misclassified transactions; emphasize the
report on GSA's consultant service contracts. Specifi-       importance of fund control through additional training;
cally, this report is to evaluate GSA's progress in estab-   and monitor field office compliance with GSA's bud-
lishing effective management controls and improving          getary and fund control system.
the accuracy and completeness of information reported
in the Federal Procurement Data System (FPDS). Dur-          The Regional Administrator generally concurred with
ing Fiscal Year 1986, GSA awarded five consulting ser-       the recommendations in the draft report; however,
vice contracts with a total value of $738,000.               some differences of opinion remain regarding charges
                                                             requiring reclassification. We arc awaiting the action
We found that GSA had established comprehensive pro-         plans for implementing the recommendations and clar-
cedures for awarding and reporting on consulting ser-        ification of classification concerns by Central Office.
                                                                                                                          15
   Museum Owner Convicted of Theft                                                                                          to be overcharged for services. The overbillings
                                                                                                                            occurred because the reglOn did not use required pricing
   On November 10, 1986, a museum owner/president                                                                           worksheets and/or compute prices in accordance with
   was sentenced in U.S. District Court after pleading                                                                      existing regulations.
   guilty to theft charges. He was sentenced to 5 years in                                                                  In our March 18, 1987 audit report, we offered seven
   prison (all but 4 months suspended), placed on proba-                                                                    recommendations to correct these and other identified
   tion for almost 5 years, ordered to pay GSA $35,600 in                                                                   deficiencies. For instance, we recommended that the
   restitution, and directed to perform 500 hours of com-                                                                   Regional Administrator ensure:
   munity service.
                                                                                                                                   •           Establishment of an invoice review procedure to
   The conviction stemmed from an OIG investigation                                                                                            verify that vendor charges are correct and proper.
   disclosing improper diversion of property the museum
   received under GSA's Donated Property Program. The                                                                              •           Documentation of prices charged on GSA
   investigation found that the subject sold donated prop-                                                                                     Form 2956, Printing and Duplicating Pricing
   erty items, such as generators, compressors, and                                                                                            Worksheet.
   engines, and retained the proceeds for his personal use.
                                                                                                                                   •           Computation of prices charged for reproduction
                                                                                                                                               paper be in accordance with Chapter 2 of GSA
                                                                                                                                               Handbook FSS P 1860.7.
   Internal Controls Require Strengthening                                                                                  The Regional Administrator agreed with the recom-
                                                                                                                            mendations in the draft report. We are awaiting action
   This period, the OIG completed an evaluation of one                                                                      plans for their implementation.
   GSA region's printing, reproduction, and distribution
   operations. The review disclosed that, while customer
   needs were satisfactorily met, some internal controls
   needed to be strengthened.
   We found that a vendor was overpaid due to inadequate
                                                                                                                             c.                Statistical Highlights
   invoice review. Clerks did not compare vendor invoice                                                                    The following table compares OIG activity and accom-
   prices to contractually agreed prices prior to approving                                                                 plishments in other GSA areas to the overall GSA totals
   payments. Also, billing errors caused some customers                                                                     for the period.




                                                    Activity
        Audit Reports Issued ................................................................................ .
        Recommended Cost Avoidance ............................................................... .
        Recommended Cost Recovery ................................................................ .
        Management Commitments to Avoid Costs ............................................. .
        Management Commitments to Recover Funds ........................................ .
        Percentage of Recommended Cost
          Avoidance Agreed to by Management .................................................. .
        Percentage Recommended Cost
          Recovery Agreed to by ManagemenL ................................................ ..
        Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .
        Implementation Reviews Finding Unimplemented Recommendations .... ..
        New Investigative          .......................................................................... .
        Criminal Referrals (Subjects) ................................................................... .
        Civil Referrals (Subjects) ...........................................................................
        Administrative Referrals (Subjects) .......................................................... .
        Suspension/Debarment Referrals (Subjects) ........................................... .
        Indictments/I nformations/Complaints ....................................................... .
        Successful Criminal Prosecutions ........................................................... ..
        Civil Settlements/Judgments ........            00 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                                                                                                                                       ------------------------------------

   D. Significant Audits From Prior                                                                                         Controls Division, Office of Administration, is respon-
                                                                                                                            sible for ensuring implementation of resolved audit
      Reports                                                                                                               recommendations. That office therefore furnished the
                                                                                                                            status information on implementation presented
                                                                                                                            herein.
   According to GSA's audit resolution system, the OIG
   is responsible for ensuring resolution of audit recom-                                                                   With regard to GSA services and staff offices other than
16 mendations, while the Audit Resolution and Internal                                                                      PBS, FSS, and IRMS, only one significant audit from a
prior Report to the Congress is not implemented; how-        puter and office automation equipment. The report
ever, it is being implemented in accordance with es-         contained six recommendations to correct the identi-
tablished milestones.                                        fied deficiencies; two have been implemented.
Accountability Over Automated Equipment                      The four remaining recommendations involve amend-
Period First Reported: April 1, 1986 to September 30, 1986   ing GSA Order OAD P 7800.3 to ensure updating of the
                                                             inventory, maintenance of documentation, and certifi-
This June 4, 1986 review found that current procedures       cation of inventory changes. Action on all four recom-
did not ensure accountability over Agency-owned com-         mendations is scheduled for completion in June 1987.




                                                                                                                      17
     SECTION VI-STATISTICAL SUMMARY OF OIG
     ACCOMPLISHMENTS

     The previous sections of this report presented OIG ac-      tion, 10 cases (16 subjects) for civil litigation, and 8
     tivity and accomplishments by GSA service and staff         cases for further investigation by other Federal or State
     office. In the pages that follow, overall OIG accom-        agencies. Based on these and prior referrals, 18 cases (44
     plishments are comprehensively reported. To facilitate      subjects) were accepted for criminal prosecution and 9
     cross-referencing, the GSA organizational orientation       cases (12 subjects) were accepted for civil litigation.
     is maintained in these summary statistics. However,
     there is not a one-to-one correspondence between the        Criminal cases originating from OIG referrals resulted
     data reported by GSA organization and the overall sta-      in 24 indictmentslinformations/complaints and 19
     tistics, because a portion of our work involved non-        successful prosecutions. Civilly, OIG referrals resulted
     GSA operations.                                             in 1 civil fraud complaint and 6 settlements. These ac-
                                                                 tions resulted in determinations that $2,800,921 is
                                                                 owed the Government. Through investigations, we also
                                                                 identified for recovery money/property worth
     A. DIG Accomplishments                                      $213,060. These monetary figures include $2,430,000
                                                                 also reported under management commitments to re-
     During the reporting period, the OIG issued 322 audit       cover funds, since they resulted from collaborative ef-
     reports, including 19 performed for the OIG by another      forts involving OIG auditors, investigators, and
     agency. These reports contained financial recommen-         attorneys.
     dations totaling $215,707,072, including $205,065,187
     in recommendations for more efficient use of resources      We referred 157 cases to GSA management for admin-
     (cost avoidance) and $10,641,885 in recommendations         istrative action. This total includes 20 case referrals (75
     for the recovery of funds.                                  subjects) for suspension/debarment and 137 case refer-
     Based on audit reports issued in this and prior periods,    rals (160 subjects) for other administrative actions.
     management committed itself to use $92,412,088 more         Based on these and prior referrals, management de-
     efficiently and to recover $2,840,577. This latter figure   barred 25 contractors, suspended 29 contractors, repri-
     includes $2,430,000 resulting from efforts that involved    manded 25 employees, suspended 4 employees,
     OIG audit, investigative, and legal collaboration.          demoted 2 employees, and terminated 10 employees.

     The OIG opened 183 investigative cases-and closed 178.      The following subsection presents detailed information
     We referred 48 cases (80 subjects) for criminal prosecu-    on these and other quantifiable accomplishments.




18
B. Summary Statistics                                              2. Audit Reports Resolved
                                                                   Table 2 summarizes the universe of audits to be
                                                                   resolved by the OIG and GSA management during
1. Audit Reports Issued                                            this period, as well as the status of those audits as of
                                                                   March 31, 1987. Thirty-two reports more than
Table 1 summarizes OIG audit reports issued this pe-               6 months old were unresolved as of March 31,1987; but
riod by GSA program area. The table includes 19 audits,            29 of them were preaward audits, which are not subject
recommending a total cost avoidance of $6,275,804,                 to the 6-month resolution requirement. Thus, only
which were performed for the GSA OIG by the Defense                three reports were actually overdue      a statistic that
Contract Audit Agency.                                             reflects creditably on GSA's audit resolution efforts.




                                              Table 1. Summary of OIG Audits
                                                        Percentage          Recommended              Recommended
                   GSA                       Reports     01 Tolal               Cost                     Cost
                 Program                     Issued       Audits             Avoidance                 Recovery

     PBS
     -Internal ...........................      73                             $  1,113,555             $    313,513
     -Contract. .........................       95                               26,383,085
                                                                                   ~"----.---.-             ~----




                                               168           52                $ 27,496,640             $    313,513

     FSS
     -Internal ...........................       7                             $                        $
     -Contract. .........................       80                              ~~~~?8                    4,599,683
                                                87           27                $ 8,106,628              $ 4,599,683

     IRMS
     -Internal ...........................      10                             $124,875,611             $
     -Contract. .........................       38                               42,963,004               5,728,689
                                                                                                            -----
                                                48            15               $167,838,615             $ 5,728,689

     Other GSA
     -Internal ...........................      17                             $                        $
     -Contract. .........................      -
                                                  1                                    752,777              ------
                                                 18            6               $       752,777          $

     Non-GSA
     -Internal ...........................                                     $                        $
     -Contract. .........................                                              870,527              -----
                                                                               $       870,527          $

     TOTAL ...............................    322            100               $205,065,187             $10,641,885
     TOTAL COSTS
     RECOMMENDED ..............               $215,707,072




                                                                                                                               19
     It should be noted that Table 2 does not include: reports                     ports (10 issued this peri'Jd, 20 issued in prior periods)
     issued to other agencies (one this period) and reports ex-                    had been excluded from the resolution system for the
     cluded from the resolution system because they pertain                        latter reason.
     to ongoing investigations. As of March 31, 1987, 30 re-




                                                     Table 2.            Resolution of OIG Audits
                                                                                       Reports With                      Total
                                                                          No. of         Financial                     Financial
                                                                         Reports     Recommendations               Recommendations

          Unresolved as of 10/1/86
          -Less than 6 months old ......................... .              130                 99                     $ 61,003,414
          -More than 6 months old ......................... .               26                 24                       11,767,255
          Reports issued this period ........................ .            311                159                      ~06,_5i!3,61?
          TOTAL TO BE RESOLVED ..................... ..                    467                282                     $279,354,281

          Reports resolved
          -Issued prior periods .............................. ..          124                 93                     $ 52,305,480
          -Issued current period ............................ .            186                 72                       53,656,916
                                                                                                                      ------

          TOTAL RESOLVED ................................ ..               310                165                     $105,962,396

          Unresolved as of 3/31/87
          -Less than 6 months old ......................... .              125                 87                      $152,926,696
          -More than 6 months old
            -Preaward .......................................... ..         29                 29                        20,205,189
            -Internal ............................................. ..       3                  1                           260,000
                                                                                                                       ~.~--.--




          TOTAL UNRESOLVED ........................... ..                  157                117                      $173,391,885




20
3. Resolution Decisions on Financial                                       in financial recommendations and $3,259,841 in re-
                                                                           solved cost avoidance that occurred, but were not re-
   Recommendations                                                         ported, last period.
                                                                           In accordance with GSA Order ADM 2030.2A, resolu-
Table 3 provides detailed information on the 165 re-                       tion decisions on financial recommendations con-
ports involving financial recommendations of                               tained in contract audit reports result in resolved cost
$lO5,962,396 that are identified in Table 2 as being re-                   avoidance or recovery. Management commitments oc-
solved this period. Notably, $98,928,627 or almost 93                      cur subsequently, at the time of contract settlement.
percent was upheld in the audit resolution process. It                     For internal audits, management commitments occur
should be noted that the table also includes $3,539,841                    at the time of resolution.




                                      Table 3.         Resolution Decisions on OIG Audits
                                                       Recommended           Resolved                Recommended          Resolved
                       GSA                                 Cost                Cost                      Cost               Cost
                     Program                            Avoidance            Avoidance                 Recovery           Recovery

     PBS
     -Internal ................................... .   $  7,297,570*        $ 6,929,076**             $        94,880     $     88,265
     -Contract ................................. .       23,567,?48             24,977,6?~                                -------
                                                       $ 30,865,318*        $31,906,750**             $        94,880     $     88,265
     FSS
     -Internal ................................... .   $         3,000      $     3,000               $    10,000         $     10,000
     -Contract ................................. .         _~104,z5~          6,475,092
                                                                                ~----~-   --- - -
                                                                                                       1 ,307,389             _209~59§
                                                       $     7,107,752      $ 6,478,092               $1,317,389          $ 719,598
     IRMS
     -Internal ................................... .   $ 11,000,000         $11,000,000               $                   $
     -Contract ................................. .          g~!2,8~6          48,982,031
                                                                             ---  -~--      -   --
                                                                                                           2,49--,!,691       2,134,329
                                                                                                                           --------
                                                       $ 64,372,886         $59,982,031                   $2,491,691      $2,134,329
     Other GSA
     -Internal ................................... .   $      590,000       $      590,000                $     2,554     $      2,795
     -Contract ................................. .         _~f?!59,!67             286,608
                                                                             ----------- --
                                                       $     3,249,767      $      876,608            $         2,554     $      2,795

     TOTAL ........................................    $105,595,723*        $99,243,481 **                $3,906,514      $2,944,987

     TOTAL
     RESOLVED
     COSTS .......................................     $102,188,468**
      'Includes $3,539,841 in recommended cost avoidance that occurred, but were not reported, last period.
     "Includes $3,259,841 in resolved cost avoidance that occurred, but were not reported, last period.




                                                                                                                                          21
     4. Contract Audit Settlements                                           achieved in negotiations with contractors. Overall,
                                                                             management commitments on GSA audits represented
     Table 4 compares contract audit resolution amounts                      almost 95 percent of the resolved amounts.
     with the corresponding management commitments




                                         Table 4.        Summary of Contract Audit Settlements
                                                                           Avoidance                      Recovery
                         GSA                          No. of          Costs      Management         Costs     Management
                       Program                       Reports         Resolved    Commitment        Resolved   Commitment

          PBS
          -Prior ............................... .     62        $16,479,334      $14,903,306      $ 283,053      $ 283,053
          -Current .......................... .        20
                                                      ---
                                                                   4,141,704        2,944,570                      ~-~~--   ..- -

                                                       82        $20,621,038      $17,847,876      $ 283,053      $ 283,053
          FSS
          -Prior ............................... .     13        $ 5,603,126      $ 4,462,478      $              $
          -Current .......................... .         8            351,131       ___!09~?22        690,111        686,664
                                                                                                                   ----
                                                       21        $ 5,954,257      $ 4,572,000      $ 690,111      $ 686,664
          IRMS
          -Prior. .............................. .     30        $19,513,518      $19,139,080      $1,769,800     $1,769,800
          -Current .......................... .         6         32,037,338       3?,037,318                         ------
                                                       36        $51,550,856      $51,176,398      $1,769,800     $1,769,800
          Other GSA
          -Prior. .............................. .       3       $     286,608    $   286,608      $              $
          -Current .......................... .                                    ~-------                       ------
                                                         3       $     286,608    $   286,608      $             $

          Subtotal-GSA ................ ..            142        $78,412,759      $73,882,882      $2,742,964     $2,739,517

          Non-GSA
          -Prior. .............................. .       3       $       7,130    $      7,130     $              $
          -Current .......................... .                      ---------                     -----


          Subtotal-Non-GSA. ......... .                  3       $       7,130    $      7,130     $              $
          TOTAL ............................... .     145        $78,419,889      $73,890,012      $2,742,964     $2,739,517*

          TOTAL
          MANAGEMENT
          COMMITMENTS................                 $76,629,529*

          *Includes $2,430,000 also reported under Monetary Results.




     5. Total Management Commitments                                         6. Recoveries
                                                                             The General Accounting Office recommended that
     Drawing upon the information presented in Tables 3                      ole Reports to the Congress include data on actual
     and 4, OIG audits involving GSA programs resulted in                    monetary recoveries in addition to management com-
     total management commitments to avoid $92,404,958                       mitment information. Although such a requirement
     and to recover $2,840,577. Adding the $7,130 from the                   has not yet been instituted, the GSA OIG requested
     non-GSA audits, total management commitments to                         data on actual audit recoveries from GSA's Audit Res-
     avoid equaled $92,412,088.                                              olution and Internal Controls Division.




22
Between October 1, 1986 and March 31, 1987, Agency                                      instances, recommendations were not being imple-
records show that $3,337,644 was recovered and depos-                                   mented in accordance with the action plans. Five of
ited in the Treasury, as the result of OIG audits.                                      these audits involved PBS programs; two involved FSS
                                                                                        programs; and the remaining one involved a Comptrol-
                                                                                        ler function.
7. Audit FoHowup
GSA Order ADM 2030.2A places primary responsibil-                                       8. Investigative Workload
ity for followup on the implementation of resolved au-
dit recommendations with the Audit Followup Official.                                   Table 5 presents detailed information on investigative
The Audit Resolution and Internal Controls Division,                                    workload by case category. The Ole opened 183 cases
Office of Administration, acts as staff to the Audit Fol-                               and closed 178 cases; only 3 of these cases were admin-
lowup Official in this function.                                                        istratively closed without referral.
The Ole performs its own independent reviews of im-                                     In addition to these cases, the Ole received and evalu-
plementation actions on a test basis. This period, the                                  ated 108 complaints/allegations from sources other
Ole performed 16 implementation reviews. Manage-                                        than the Hotline that involved eSA employees and pro-
ment had successfully implemented the recommenda-                                       grams. Based upon an analysis of these allegations, OIG
tions contained in 8 of these reviews. In the other 8                                   investigations were not warranted.




                                                      Table 5.           Investigative Workload
                                  Case                                         Cases Open         Cases          Cases        Cases Open
                                 Category                                        10/1/86          Opened         Closed         3/31/87
     White Collar Crimes ........................................ .               203               69             78             194
     Other Crimes Involving GSA Operations ........ .                              39               29             20              48
     Contractor Suspension/Debarment ................ .                            38               17             17              38
     Employee Misconduct ..................................... .                   39               31             36              34
     Other .............................................................. .        13                              27
     TOTAL ........................................................... ..         332              183            178            337



Table 6 distributes the 183 new investigative cases                                     fell within the white collar crime category. Most of the
opened this period (Table 5) by case category and GSA                                   new cases (72 percent) involved PBS and FSS programs.
program area. Notably, 38 percent of the cases opened




                                    Table 6.           Distribution of Cases Opened This Period
                                  Case                                                                                           Other
                                 Category                                         PBS              FSS            IRMS           GSA
     White Collar Crimes ......................... ,...............                26               32              8               3
     Other Crimes Involving GSA Operations .........                               14               12              2              1
     Contractor Suspension/Debarment .................                              6                 9                            2
     Employee Misconduct .....................................                     16                 5             1              9
     Other ....................................... " .......................                         4             _1             25
     TOTAL .............................................................           69               62             12             40




                                                                                                                                                   23
     9. Referrals                                                                           The status of OIG administrative referrals is as follows:

     The OIG makes three types of referrals to officials out-                                                                                    Cases    Subjects
     side GSA: criminal, civil, and investigative. During this                                Pending Decision
     period, we referred 48 cases involving 80 subjects to the                                  as of 10/1186 ..........................           38        74
     Department of Justice or other authorities for criminal                                  Referrals.....................................      137       160
     prosecutive consideration. The status of OIG criminal                                    Action Completed...... ... ............             134       173
     referrals is as follows:                                                                 Pending Decision
                                                                                                as of 3/31187 ..........................           41          61
                                                               Cases     Subjects           Of the 137 cases referred for administrative action this
        Pending Prosecutive Decision                                                        period, 78 cases (88 subjects) involved GSA employees.
          as of 10/1/86 ..........................              34              64          As a result of these and prior referrals, management
        Referrals.. .... ............ ... ....... ..... ....    48              80          took the following actions against GSA employees:
        Declinations ..............................             36              57
        Accepted for Prosecution..........                      18              44            Reprimands...............................            25
        Pending Prosecutive Decision                                                          Suspensions ............ ........ .... .......        4
          as of 3/31187 ..........................              28              43            Demotions.................................            2
                                                                                              Terminations.............................            10
     The OIG also referred 10 cases involving 16 subjects to
     either the Civil Division of the Department of Justice or
     a U.S. Attorney for civil fraud litigation consideration.                              11. Contractor Suspensions and
     The status of OIG civil referrals is as follows:
                                                                                                Debarments
                                                               Cases     Subjects           This period, the OIG referred 6 cases involving 27 sub-
        Pending Litigation Decision                                                         jects for suspension and 14 cases involving 48 subjects
          as of 1011/86 ..........................              11              14          for debarment. As a result of these and prior referrals,
        Referrals.....................................          10              16          management imposed 29 suspensions and 25 debar-
        Declinations..............................               3               6          ments. Management disapproved 8 suspensions and 18
        Accepted for Litigation .............                    9              12          debarments.
        Pending Litigation Decision
          asof3/31187 ..........................                 9              12          The status of OIG suspension and debarment referrals
                                                                                            is as follows:

     The OIG made 8 case referrals to other Federal or State
     agencies for further investigation or other action.                                                     Suspensions                         Cases    Subjects
                                                                                              Pending as of 10/1/86................                 7          16
                                                                                              Referrals....... .... ..........................      6          27
                                                                                              Action Completed.....................                10          37
                                                                                              Pending as of 3/31187................                 3           6
     10. Administrative Referrals and                                                                        Debarments                           Cases   Subjects
         Actions                                                                              Pending as of 10/1/86................                13       36
                                                                                              Referrals.....................................       14       48
     Frequently, OIG investigations disclose nonprosecut-                                     Action Completed. ..... .... ...........             10       43
     able wrongdoing on the part of GSA employees, con-                                       Pendingasof3/31/87................                   17       41
     tractors, or-private individuals doing business with the
     GSA. The OIG refers these cases to GSA officials for ad-
     ministrative action.                                                                   12. Summary of Referrals by GSA
     During the period, we referred 137 cases involving 160                                     Program Area
     subjects for administrative action. In addition, we re-
     ferred 77 cases involving 82 subjects to GSA officials for                             Table 7 summarizes OIG referrals this period by type of
     informational purposes only.                                                           referral and GSA program area.


                                                   Table 7.          Summary of OIG Subject Referrals
                                        GSA                                                                             Adminis-                 Suspension/
                                      Program                                    Criminal            Civil               trative                 Debarment
           PBS ............................................................ .        38                  3                    77                     27
           FSS ............................................................ .        30                  6                    47                     40
           IRMS .......................................................... .          9                  6                     5
           Other GSA ................................................. .              3                  1                 ~                        ~
           TOTAL ....................................................... .           80                16                   160                      75
24
13. Criminal and Civil Actions                                                          complaint against 1 individual. In addition, settlements
                                                                                        were reached in 4 cases with 6 subjects.
Cases accepted for criminal prosecution during this and                                 Table 8 summarizes individual criminal and civil ac-
prior periods resulted in 24 indictmentslinformations/                                  tions by GSA program area. In addition, there were 3
complaints and 19 successful prosecutions. Civil refer-                                 unsuccessful civil cases against 6 subjects and 1 unsuc-
rals from this and prior periods resulted in a civil fraud                              cessful criminal case against 1 subject.




                                       Table 8.           Summary of Criminal and Civil Actions
                                                                                  Indictments/                                    Civil
                                     GSA                                         Informations/            Successful          Settlements/
                                 Program                                           Complaints            Prosecutions         Judgments
      PBS ................................................................ .                  6                  4                     1
      FSS ................................................................ .                 18                 15                     4
      IRMS .............................................................. .                                                            1
      Other GSA ...................................................... .
      TOTAL ............................................................ .                   24                 19                     6




14. Monetary Results                                                                    in money and/or property during the course of its
                                                                                        investigations.
Table 9 presents the amounts determined to be owed
the Government as a result of criminal and civil ac-                                    Because of the collaborative nature of OIG activities,
                                                                                        $2,4,30,000 of the amounts reported as investigative re-
tions.     amounts do not necessarily reflect actual
monetary recoveries.                                                                    coveries and criminal and civil recoveries is also re-
                                                                                        ported under management commitments to recover
In addition, the OIG identified for recovery $213,060                                   funds.




                                               Table 9.             Criminal and Civil Recoveries
                                                                                   Criminal                    Civil                 Total
      Fines and Penalties ......................................... .             $ 78,150               $                     $          50
      Settlements/Judgments .................................. .                                             2,555,000             2,555,000
      Restitutions ..................................................... .         167,771
                                                                                   --    -    --~
                                                                                                                                     1
      TOTAL ... .,.n.............................         .................. .                           $2,555,000




15. OIG Subpoenas                                                                   Notably, the GSA OIG also participated in a project
                                                                                    sponsored by the Council of Counsels to the Inspectors
During the period, 49 OIG subpoenas were issued. The                                General this period. The effort involved the develop-
majority of these subpoenas involved an ongoing inves-                              ment of practice materials that would be useful to all
tigation of a construction contract. They were issued to                            OIGs in enforcing OIG subpoenas, particularly against
obtain subcontractor and bank records containing vital                              claims of privilege.
evidence.




                                                                                                                                                   25
     SECTION VII-REVIEW OF LEGISLATION
     AND REGULATIONS

     Section 4(a)(2) of the Inspector General Act of 1978       •   S. 265, a bill to require executive branch agencies
     requires the OIG to review existing and proposed leg-          to contract with private sector sources for the per-
     islation and regulations relating to the programs and          formance of commercial activities. While we en-
     operations of GSA. In order to fulfill this legislated         dorsed the objective of this bill, we commented
     responsibility, the OIG maintains a clearance system           that this area is best addressed by administrative
     that ensures OIG review of all proposed legislation,           and executive action, notably OMB Circular
     regulations, and internal directives having impact on          A-76. We expressed concern that making these
     any aspect of GSA operations.                                  contracting and cost comparison issues matters of
                                                                    legislative mandate might lead to undue restric-
                                                                    tions on Government operations and uneconomic
                                                                    results.
     A. Legislation/Regulations
                                                                •   General Services Acquisition Regulation Change
        Reviewed                                                    5-140, the proposed subpart on bankruptcy, in-
                                                                    solvency, or dissolution of a business. We
     During the period, the OIG reviewed 144 legislative            endorsed the proposed subpart prescribing the
     matters and III proposed regulations and directives.           procedures to be followed when a contractor is in
     We provided substantive comments on 6 legislative              financial difficulty or has filed for bankruptcy. We
     matters and 12 regulations and directives.                     proposed that a provision be added providing that
                                                                    the Inspector General be advised whenever there
     The OIG legal staff coordinates the clearance function,        is reason to believe that a contractor may have
     seeking input from the other components as appropriate.        fraudulently transferred assets.
                                                                •   Draft model regulation for the Program Fraud
                                                                    Civil Penalties Act of 1978. We provided detailed
     B. Significant Comments                                        technical comments and suggested that:
     The OIG provided significant comments on the follow-               the guidelines for determining the amount of
     ing legislation, regulations, orders, and directives:              penalty be less rigid;
       •   S. 330, the proposed Department of International             the discovery provisions be somewhat modi-
           Trade and Industry Act of 1985. We noted that Ti-            fied;and
           tle III of the bill, which would make the National           a provision be made for designating a substi-
           Atmospheric and Oceanic Administration an in-                tute reviewing official when the initial re-
           dependent agency, contained no provision for an              viewing official or administrative law judge is
           Inspector General. We suggested that the bill be             disqualified.
           amended to provide for an Inspector General in
           accordance with the provisions of the Inspector      •   Draft GSA Order ADM P 2300.1, the Civil Rights
           General Act of 1978.                                     Handbook. We suggested that a paragraph be
                                                                    added to Chapter 8 (Discrimination Complaints)
       •   H. R. 106, the proposed Congressional Oversight          stating that if, while processing a complaint, the
           of Agency Rules Act of 1987 and H. R. 539, the           complaints officer develops information indicat-
           proposed Regulatory Oversight and Control Act            ing that wrongdoing has occurred, he/she notify
           of 1987. We opposed both of these bills which,           the Assistant Inspector General for Investigations
           through somewhat differing approaches, would             immediately.
           substantially alter the Federal rule-making pro-
           cess by requiring direct Congressional review and    •   Draft GSA Order OHR P 5440.1, proposed
           approval of agency rules. We noted that existing         changes in the organization of GSA's Office
           procedures and requirements for agency rule-             of the Comptroller. We commented that the
           making, including those of the Administrative            proposed order did not address certain responsi-
           Procedures Act, provide adequate opportunity for         bilities assigned to the Comptroller by the Ad-
           public or Congressional participation. We also           ministrator, notably the requirement to assure
           noted certain constitutional concerns and com-           the quality of GSA's financial information. We
           mented that the requirements contemplated by             suggested that the draft order needed to be modi-
           these bills would add greatly to the burdens of          fied so that prompt action would be initiated to
           Government without appreciable benefit.                  improve the quality of this information.




26
•   Proposed Federal Information Resources Man-         lization (see Section VIII, Paragraph B( 1)), modifi-
    agement Regulation Bulletin, GSA's manage-          cations needed to be made to ensure that:
    ment and control of long-distance telephone
                                                            agency users have sufficient information to
    services. We provided detailed technical com-
                                                            identify and follow up on unofficial FTS calls;
    ments on the proposed bulletin. In particular, we
                                                            and
    noted areas where, based on the peIE Report on
    Federal Telecommunications System (FTS) Uti-            exception reports, sample data, and call detail
                                                            information are useful and cost effective.




                                                                                                                27
   SECTION VIII-OTHER OIG ACTIVITIES

   In addition to detecting problems in GSA operations,         The OIG's program for reviewing leases prior to award
   the OIG is responsible for initiating actions to prevent     provides front-end assurance that GSA is adhering to
   fraud, waste, and abuse and to promote economy and           regulations and procedures before awarding selected
   efficiency. This section details: the OIG program re-        leases involving annual rentals in excess of $200,000.
   sponding to these legislated prevention responsibili-        The reviews, although purely advisory in nature, limit
   ties, and OIG involvement in projects sponsored by the       opportunities for fraud, waste, and abuse in the leasing
   President's Council on Integrity and Efficiency (PCIE).      area.
                                                                The program achieved the following results during the
                                                                reporting period:
                                                                  Lease proposals   submitted for review ................ 100
   A. DIG Prevention Program                                      Lease proposals   reviewed .................................... .42
                                                                  Lease proposals   with deficiencies ........................ 22
   The OIG prevention program is comprised of four ele-           Lease proposals   with no deficiencies ................... 20
   ments that simultaneously focus on minimizing oppor-
   tunities for fraud, waste, and abuse and promoting           Major deficiencies identified through OIG preaward
   awareness among GSA employees. This four-pronged             advisory reviews related to: potential overpayments be-
   approach consists of:                                        cause a proposed lease did not adequately consider a lo-
                                                                cal tax abatement program that lowered the lessor's real
      o   Defining areas vulnerable to fraud, waste, and        estate tax liability; and a termination clause that did
          abuse and assessing the degree of vulnerability.
                                                                not adequately define GSA's rights in the event a por-
      o   Anticipating potential problem areas and per-         tion of the space became vacant. Other deficiencies in-
          forming front-end reviews to help ensure that pro-    cluded: unspecified overtime service rates; an
          grams will operate within applicable laws,            incomplete appraisal report; no fire and safety review;
          policies, and procedures.                             and unspecified utility payments.
      o   Educating GSA employees on the manifestations
          of fraud and the mechanisms for reporting suspi-
          cions or allegations to the OIG.                      3. Education
      o   Communicating the OIG presence and establish-
          ing mechanisms that promote a dialogue between        Integrity Awareness Briefings comprise the OIG's pri-
          GSA employees and the OIG.                            mary vehicle for educating employees on the manifes-
                                                                tations of fraud and abuse. These briefings explain the
                                                                statutory mission of the OIG and the functions exe-
                                                                cuted by each of our component offices. In addition,
                                                                through case studies and slides, the briefings expose
    1. Definition                                               GSA employees to actual instances of white collar
                                                                crime in GSA and other Federal agencies. They con-
    The OIG considers the identification of vulnerable          clude with a presentation on bribery that teaches em-
    areas to be a major prerequisite to the prevention of       ployees how to recognize bribery attempts; how to
    fraud, waste, and abuse. Toward this end, the OIG ex-       respond to them; and the employee's potential role in
    pended considerable resources this period on the rede-      an ensuing investigation. Since the inception of this
    sign of its Management Inventory of Auditable Entities.     program in 1981, 6,890 GSA employees have attended
    The redesigned inventory, which is scheduled for com-       Integrity Awareness Briefings.
    pletion in April 1987, will present GSA's universe of au-
    ditable entities in a format that can readily be used to    In our last report, we advised that, at the Administra-
    develop the OIG's annual audit plans. This approach         tor's request, a series of program-specific Integrity
    will greatly enhance the OIG's capability to target         Awareness Briefings were under development. This ef-
    priority audit areas and take action to provide the req-    fort was based on the premise that the integrity mes-
    uisite coverage in a timely fashion.                        sage would be more meaningful if discussed in relation
                                                                to the particular program in which each employee
                                                                works.
                                                                This period, we presented the program-specific brief-
                                                                ings to our first target group, employees of GSA's build-
    2. Anticipation                                             ings management program. Since November, 2,600
                                                                employees in 10 regions have been briefed.
   OIG anticipation activities this period focused on re-
   view of proposed legislation and regulations (Section        Meanwhile, development of a second briefing package,
   VII) and continued preaward coverage of GSA's leasing        aimed at the Federal Supply Service's quality and con-
   program. These activities stem from the belief that          tract administration program, is nearly complete.
   many of tomorrow's problems can be avoided through           These briefings are scheduled to commence in May
28 decisive action today.                                       1987.
4. Communication                                               On March 16, 1987, the GSA OIG issued the PCIE's
                                                               consolidated report to GSA management. The report
A free flow of information between GSA employees and           contained 28 recommendations aimed at reducing Gov-
the OIG is a vital prevention and detection element.           ernment-wide telecommunications costs through im-
Recognizing this fact, the OIG issues brochures on the         provements in management controls and changes in
Hotline and its Report to the Congress and displays            policy. The major recommended actions included:
Hotline posters in all GSA buildings nationwide.                 @)   Taking greater advantage of specific controls that
This period, we received 295 Hotline calls and letters.               prevent, deter, and detect unofficial long distance
Of these,76 complaints warranted further action. We                   calls;
also received 10 referrals from GAO and 17 referrals             @)   Allowing agencies to collect both the value of un-
from other agencies; 25 of these referrals required fur-              official calls and associated administrative ex-
ther action. The remaining 219 Hotline complaints re-                 penses to fully compensate the Government;
quired no further action and were closed.
                                                                 @)   Conducting an employee awareness program on
                                                                      the use and cost of FTS services;
                                                                      Revising the Government's policy on the use of
B. Projects Sponsored by the                                     @)

                                                                      telephones to recognize the needs of employees to
                                                                      make personal calls, at their own expense, from
   PCIE                                                               their place of work;
The OIG continued to participate in interagency projects         *    Strengthening controls over the ordering, receipt,
sponsored by the PCIE. Specific involvement this period               and verification of telephone services; and
is delineated by project in the paragraphs that follow. In
addition to these efforts, OIG staff members also pro-           *    Issuing a Telecommunications Managers Hand-
vided ongoing support to several PCIE committees.                     book to assist agencies in managing their tele-
                                                                      communications operations.
                                                               GSA management officials are working with other
                                                               members of the Federal community to ensure that the
1. Review of Federal                                           actions taken in response to these recommendations
   Telecommunications System (FTS)                             will be effective. We estimate that implementation of
   Utilization                                                 these corrective actions could result in an additional
                                                               $125 million in cost avoidances annually.
The GSA OIG has been the lead agency on this PCIE re-          This project is now considered complete, although the
view aimed at:                                                 GSA OIG will monitor resolution of the report and im-
  @)   Evaluating the utilization of telecommunications        plementation of its recommendations.
       resources.
  It   Identifying ways of reducing telecommunications
       costs through more effective and efficient man-         2. Review of Compliance With IRS
       agement of these resources.
                                                                  Information Return Filing
The 17 participating agencies have issued a total of 29           Requirements (Form 1099)
reports to improve telecommunications management
and operations in their respective departments and             The GSA OIG was one of 14 agencies that participated
agencies. Estimated cost avoidances of $6.4 million can        in this two-phased review. The project was initiated to
already be attributed to actions that have been or will be     assess:
taken as a result of these efforts.
The overall review, which was completed this period,
                                                                 *    Federal agencies' compliance with the Form 1099
                                                                      filing requirement for non wage payments.
showed that unofficial use of FTS long distance services
is significant, widespread, and expensive. We estimated          @)   Whether Federal program recipients were filing
that at least 22           (or about one out of five) FTS             Forms 1099 for nonwage payments to third parties.
long distance            placed for unofficial purposes at
a cost of approximately $165 million annually. This fig-       The Internal Revenue Service (IRS) uses Form 1099 in-
ure includes      mill ion for the calls and $ 76 million in   formation to determine whether taxpayers have prop-
expenditures for unproductive employee work time.              erly reported payments from Government agencies in
                                                               their income tax returns. Individual agency reports
The review also identified that agencies were paying for       were issued by each participating agency; the GSA
an estimated 18,500 telephone lines that were either           OIG's report was issued on December 8, 1986. The De-
disconnected or not needed. This situation occurred be-        partment of Treasury OIG, which was the lead agency
cause many agencies were not conducting required an-           on this project, issued the consolidated report to the
nual inventories of equipment or reviewing bills to            Chairman of the PCIE on December 16, 1986. This ac-
identify discrepancies.                                        tion completed the project effort.
     3. Auditor/Accountant Job Analysis                        try-level auditors, assisted in the development of two
                                                               questionnaires. The first, which will be used to solicit in-
        Project                                                formation from supervisors, focuses on the specific per-
     The GSA orG is participating, in conjunction with         formance levels expected of GS-S, 7, and 9 auditors and
     other Federal agencies, in this evaluation of the audi-   the background necessary to perform at these levels. The
     tors/accountants referred by the Office of Personnel      second, targeted at the auditors, solicits information on
     Management (OPM) for entry level positions. The re-       the backgrounds possessed by incumbents and the nature
     view will evaluate whether methods for screening ap-      of the work they are currently performing.
     plicants for placement on OPM registers require
                                                               The questionnaires will be sent out in June. After anal-
     change.
                                                               ysis, the findings will be summarized in a report, sched-
     During the period, a decision was made to separately      uled for issuance in September 1987, that will identify
     analyze the requirements for auditors and accountants.    recommended improvements to OPM's examination
     The GSA OIG, which is participating in the study of en-   process.




30
APPENDICES
     APPENDIX I AUDIT REPORT REGISTER
                               Ie




     Assignment                                                                                               Date of
     Number       Title                                                                                       Report

     PBS          Contract Audits
     A60490       Preaward Audit of Cost or Pricing Data: Fire Security Systems, Inc., Solicitation No. GS-   10/02/86
                  OSP-86-GBC-0098
     A60605       Preaward Audit of Cost or Pricing Data: Stowell Plastering Company, Subcontractor to        10/03/86
                  Fire Security Systems, Inc., Solicitation No. GS-OSP-86-GBC-0098
     A60487       Preaward Audit of Lease Escalation Proposal: Twelfth and L. Limited Partnership, Lease      10/08/86
                  No. GS-03B-OS729
     A60463       Preaward Audit of a Claim for Increased Costs: Mercury Masonry Corp., Subcontractor         10/10/86
                  to Terminal Construction Corp., Contract No. GS-02P-23256
     A60477       Preaward Audit of a Claim for Increased Costs: Rich, Inc., Subcontractor to Powers Reg-     10/10/86
                  ulator Company, Contract No. GS-OOB-02850
     A60478       Preaward Audit of a Claim for Increased Costs: Rich, Inc., Subcontractor to Powers Reg-     10/10/86
                  ulator Company, Contract No. GS-09B-7S19SF
     A60479       Preaward Audit of a Claim for Increased Costs: Rich, Inc., Subcontractor to Powers Reg-     10/10/86
                  ulator Company, Contract No. GS-05BC-81422
     A60510       Preaward Audit of a Claim for Increased Costs: Active Fire Sprinkler Corp., Contract        10/10/86
                  No. GS-02B-77081
     A60599       Preaward Audit of Architect and Engineering Services Contract: Kaplan/McLaughlin/           10/10/86
                  Diaz Architects, Project No. NCA01700
     A60600       Preaward Audit of Architect and Engineering Services Contract: Cygna Consulting En-         10/10/86
                  gineers, Consultant to Kaplan/McLaughlin/Diaz, Project No. NCA01700
     A60601       Preaward Audit of Architect and Engineering Services Contract: Syska/Hennessy, Con-         10/10/86
                  sultant to Kaplan/McLaughlin/Diaz, Project No. NCA0l700
     A60618       Preaward Audit of Architect and Engineering Services Contract: Welton Becket Asso-          10/10/86
                  ciates, Project No. ZCA70198
     A60619       Preaward Audit of Architect and Engineering Services Contract: John A. Martin and As-       10/10/86
                  sociates, Structural Engineer Consultant to Welton Becket Associates, Project No.
                  ZCA70l98
     A60454       Preaward Audit of a Claim for Increased Costs: Trataros Painting & Construction Corp.,      10/14/86
                  Contract No. GS-02B-77266
     A60580       Preaward Audit of Architect and Engineering Services Contract: Moisture Systems, In-        10/16/86
                  corporated, Solicitation No. GS-1lB-69020
     A60617       Preaward Audit of Architect and Engineering Services Contract: Gobbell Hays Partners,       10/16/86
                  Incorporated, Solicitation No. ICT86409 (INY86434)
     A60566       Preaward Audit of Construction Administration Services Contract: MH Golden Com-             10/17/86
                  pany, Project No. NCA01400
     A60634       Preaward Audit of Architect and Engineering Services Contract: TCA Engineers, Solic-        10/17/86
                  itation No. B/206186000
     A60635       Preaward Audit of Architect and Engineering Services Contract: Building System Eval-        10/17/86
                  uation Inc., Solicitation No. B/206186000
     A60536       Preaward Audit of Lease Escalation Proposal: A.D. Brown Building, St. Louis, Missouri,      10/21/86
                  Lease No. GS-06B-14033
     A60595       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Eccles Security      10/21/86
                  Agency, Inc., Solicitation No. GS-003-86-00R-0023

32
A60472   Preaward Audit of Change Order Proposal: Olde Line Maintenance, Inc., Contract No.             10127/86
         GS-llC-50155
A60613   Audit of Termination Proposal: Instrument Control Service, Inc., Contract No. GS-              10128/86
         llC-500l0
A60S4S   Preaward Audit of Change Order Proposal: A.1. Smith Electrical Contractors, Inc., Sub-         10/30/86
         contractor to Arnell Construction Corp., Contract No. GS-02B-23112
A60S44   Preaward Audit of a Claim for Increased Costs: Samson Stone Co., Inc., Subcontractor           11/04/86
         to Terminal Construction Corp., Contract No. GS-02P-23256
A700l7   Preaward Audit of Architect and Engineering Services Contract: Seelye Stevenson                11106/86
         Value & Knecht, Subcontractor to Urbahn Associates, Inc., Solicitation No. 02-PPC-
         CM-086-0506
A6061S   Preaward Audit of Lease Escalation Proposal: Umiak, Ltd., A California Limited Part-           11107/86
         nership, Lease No. GS-08B-09926
A60630   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Stop Private In-        11/07/86
         vestigation Agency, Inc., Solicitation No. GS-003-86-00R-0026
A700S0   Review of Proposal for Initial Pricing Under GSA Contract No. GS-IlB-69028: Science            11/07/86
         Applications International Corporation
A60606   Preaward Audit of Proposed Lease Costs: Detroit International Bridge Company, Solic-           11112186
         itation No. GS-05B-14114
A60581   Preaward Audit of Architect and Engineering Services Contract: Weller & Scott, Con-            11113/86
         tract No. GS-11B-69023
A700l0   Preaward Audit of Architect and Engineering Services Contract: Sussna DeSign Office,           11113/86
         Solicitation No. 02-PPC-CM-086-0523
A70077   Review of Lease Escalation for Lease No. GS-04B-15943: Columbus Building, 5205                 11113/86
         N.W., 84th Avenue, Miami, Florida
A60496   Preaward Audit of Change Order Proposal: The Davis Corporation, Contract No. GS-               11114/86
         1lB-38074
A60414   Preaward Audit of A Claim for Increased Costs: Tyger Construction Company, Con-                11117/86
         tract No. GS-04B-83034
A70036   Preaward Audit of Architect and Engineering Services Contract: GHI Architects, Project         11119/86
         No. ZCA70203
A70007   Preaward Audit of Architect and Engineering Services Contract: Federman Construc-              11/21/86
         tion Consultants, Inc., Solicitation No. 02-PPC-CM-086-0521
A60484   Preaward Audit of Architect and Engineering Services Contract: Gibbs & Hill Inc., So-          11124186
         licitation No. 02-PPC-CM-086-0510
A70037   Preaward Audit of Supplemental Architect and                     Services in Northern Cali-    11126/86
         fomia: Reid & Tarics Associates, Project No.
A70039   Preaward Audit of Architect and .tn;e;meermg Services Contract: Cygna Consulting En-           11126/86
                Solicitation No.
A60587   Preaward Audit of           and Engineering Services Contract. Holmes, Sabatini,               12/01186
         Smith Eeds, (A Partnership), Solicitation No. GS-07P-HUC-009S
A70085   VTP~UIt"r(l     Amht             Busmess Admimstration 8(a) Price Proposal: State Janitorial   12/01/86
                        Inc., Solicitation No. OPR-9PPB-860286
A70040                  Audit           Business Administration H(a) Pricing Proposal: Metropolitan     12/04/R6
         ,-,>,"aa.uF.   Corporation, Inc., Solicitation No. GS-l1P86-MJC0090
A70064            Audit of        Business Administration 8(a) Pricing Proposal: Brown's Main-          12/04/86
         tenance and Security Co. Inc./ Leavenworth,         Solicitation No. 6PPB-86-0075
A70072   Preaward Audit of Small Business Admimstration 8(a) Pricing Proposal Ridley South-             12/05/86
         side Janitorial Service, Inc., Kansas City, Missouri, Solicitation No. 6PPB-86-0082
A60563   Preaward Audit of Lease Escalation Proposal.             Schnider Company, Lease No. GS·       12/08/86
         03B-5734

                                                                                                                   33
     A70049   Preaward Audit of Architect and Engineering Services Contract: Peck-Peck & Associ-       12/09/86
              ates, Inc., Solicitation No. ZOE-00801
     A70093   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Hyde's Security   12/11/86
              Services, Inc., Solicitation No. GS-04P-EWC-0082
     A60585   Preaward Audit of Lease Escalation Proposal: Equitable Real Estate, Lease No. GS-09B-    12/12/86
              73066
     A60640   Preaward Audit of Cost or Pricing Oata: Webb, Murray & Associates, Inc., Contract No.    12/12/86
              GS-07P-86-HUO-O 100
     A70091   Preaward Audit of Architect and Engineering Services Contract: Kidde Automated Sys-      12/15/86
              tems, Inc., Project No. RCA-89999
     A60612   Preaward Audit of Architect and Engineering Services Contract: The Gruzen Partner-       12/16/86
              ship, The Ehrenkrantz Group, and Syska & Hennessy, A Joint Venture, Contract No.
              GS-02B-23092
     A60267   Preaward Audit of Change Order Proposal: The Oavis Corporation, Contract No. GS-         12/17/86
              11B-38074, Change Order No.2 (POL)
     A70022   Preaward Audit of Architect and Engineering Services Contract: Notter, Finegold &        12/19/86
              Alexander, Inc., Contract No. GS-11B-69034
     A60602   Preaward Audit of Change Order Proposal: Blake Construction Co., Inc., Contract No.      12/22/86
              GS-llB-08981
     A70015   Preaward Audit of Architect and Engineering Services Contract: Summer Consultants,       12/22/86
              Inc., Contract No. GS-I1B-69034
     A70116   Preaward Audit of Architect and Engineering Services Contract: Randall Lamb Asso-        12/22/86
              ciates, Project No. ZCA86120
     A60608   Preaward Audit of Architect and Engineering Services Contract: Benbassat & Sporidis      12/31/86
              Co., Contract No. GS-I1B-69022
     A70174   Review of Proposal for Initial Pricing under RFP No. GS-PPB-86-063-0BOO: Booz, Allen     01/07/87
              & Hamilton, Inc., Bethesda, Maryland
     A60511   Preaward Audit of Architect and Engineering Services Contract: TAMS Consultants,         01/13/87
              Inc.! Applied Technology Consultants, Inc., Joint Venture, Solicitation No. 02-PPC-CM-
              086-0511
     A70062   Preaward Audit of Architect and Engineering Services Contract: Sargent Webster Cren-     01/13/87
              shaw & Folley, Solicitation No. 2PPC-CM-086-0524
     A60556   Preaward Audit of a Claim for Increased Costs: L & L Painting Co., Inc., Subcontractor   01/15/87
              to Terminal Construction Corp., Contract No. GS-02P-23256
     A60603   Preaward Audit of Architect and Engineering Services Contract: Urbahn Associates,        01/15/87
              Inc., Solicitation No. 02-PPC-CM-086-0506
     A70129   Preaward Audit of Architect and Engineering Services Contract: Abend Singleton As-       01/15/87
              sociates, Inc., Kansas City, Missouri, Solicitation No. ZM071240
     A60588   Preaward Audit of Architect and Engineering Services Contract: The Carlson Group,        01/16/87
              Project No. lMA 78545
     A70197   Preaward Audit of Architect and Engineering Services Contract: Clayton Environmen-       01/20/87
              tal Consultants, Inc., Solicitation No. 02-PPC-CM-086-0510
     A70128   Preaward Audit of Architect and Engineering Services Contract: Turpin, Wachter As-       01/21/87
              sociates, Inc., Solicitation No. ZOE-00801
     A60179   Preaward Audit of Change Order Proposal: Bechtel Constructors Corporation, Contract      01/22/87
              No. GS-08B-93135
     A70013   Preaward Audit of Architect and Engineering Services Contract: Northern Engineering      01/22/87
              and Testing, Inc., Solicitation No. GS-07P-86-HUO-0124




34
A70054   Preaward Audit of Architect and Engineering Services Contract: Edwards & Daniels As-         01122/87
         sociates, Architects, Solicitation No. GS-07P-86-HUD-011O
A70055   Preaward Audit of Architect and Engineering Services Contract: AllredlFisher, Archi-         01122/87
         tectslEngineers, P.e., Solicitation No. GS-07P-86-HUD-0176
A70I01   Preaward Audit of Architect and Engineering Services Contract: Wank Adams Slavin             01128187
         Associates, Solicitation No. 02-PPC-CM-086-0527
A60553   Audit of the Application for Award of Attorneys' Fees and Expenses Under the Equal           01129/87
         Access to Justice Act: Warwick Holding Company, Inc., Contract No. GS-02B-17185
A70028   Preaward Audit of a Claim for Increased Costs: CMS Contractors, Inc., Contract No.           02/06/87
         GS-IIB-59023
A70230   Review of Proposal for Initial Pricing Under RFP No. GS-PPB-86-063-DBOO: System De-          02/06/87
         velopment Corporation Services Group, Camarillo, California
A60643   Preaward Audit of Architect and Engineering Services Contract: Research Planning As-         02110/87
         sociates, Solicitation No. ZPA-00117
A70065   Preaward Audit of an Architect and Engineering Services Contract: Widom/Wein &               02111187
         Partners, Inc., Solicitation No. ICA-1l180
A70192   Preaward Audit of Supplemental Mechanical and Electrical Engineering Design Ser-             02117/87
         vices in Southern California: Lee and Ro Consulting Engineers, Project No. ZCA 86130
A70094   Preaward Audit of Lease Escalation Proposal: Poughkeepsie Financial Plaza, Lease No.         02/19/87
         GS-02B-18578
A60616   Audit of Cost Reimbursable Contract:       J&J Maintenance, Inc., Solicitation No. GS-07B-   02/24/87
         21602
A70I17   Preaward Audit of Lease Escalation Proposal: California State Automobile Association,        02124187
         Lease No. GS-09B-75262
A70213   Preaward Audit of Change Order Proposal: M.e. Hodom Construction Company, Inc.,              02126/87
         Contract No. GS-02P-23444
A70164   Evaluation of Subcontractors' Claims for Equitable Adjustment: P. Francini and Com-          02127/87
         pany, Inc., Contract No. GS-OlB-02350
A70016   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Daute Con-            03/04/87
         n",~t-n·rc Inc., Solicitation No. GS-llP-86-MKC-7278

A70218   Preaward Audit of Cost or Pricing Data: AEC Corporation, Solicitation No. RFL86066           03/04/87
A60508   Preaward Evaluation of Lease Escalation Proposal: Town Center Management Corpo-              03/05/87
         ration, Contract No. GS-03B-OS788
A60554   Preaward Audit of a Claim for Increased Costs: Tenninal Construction Corp., Contract         03/05/87
         No. GS-02P-23256
A70125   Audit of Contract Extension: Northern Virginia Service Corporation, LaGrange,                03/09/87

A70120   P-YP'H".-..,.<1 Audit of ArchitectlEngineering Services Contract: The Gruzen Partnership,    03116187
         The Ehrenkrantz Group, and Syska & Hemlessy, A Joint Venture, Contract No. GS-02B-
         2::)092
A70In    Vrp'lUT-:trn    Audit of Change Order Proposal: Centex Construction Company, Inc., Con-      03117187
         tract No. GS-IIB-19066
A70233             Audit of Elevator           and Construction Inspection Services Contract:         03120/87
         Professional          Inc., Solicitation No. ZDE-70006
A70096                  Audit of Architect and Engineering Services Contract: e.W. Fentress and As-   03/23/87
                           Solicitation No. GS-07P-86-HUC-0171
A60610            Audit of Lease Alteration Proposal: Comsite International Co., Contract No.         03127/87
         GS-llB-60198




                                                                                                                 35
     A70199   Preaward Audit of Change Order Proposal: Holtze Construction Co., Sioux City, Iowa,     03/27/87
              Contract No. GS-06P-86-GYC-0066
     A70363   Review of Proposal for Initial Pricing Under RFP No. GS-PPB-86-063-DBOO: SASC Ser-      03/31187
              vices Incorporated, A Systems and Applied Sciences Corporation Company, Vienna,
              Virginia



     PBS      Internal Audits
     A60637   Preaward Lease Review: Six Skyline Place, 5109 Leesburg Pike, Falls Church, Virginia,   10/01186
              Lease No. GS-11B-60253
     A60551   Review of the Revised A-76 Mechanical Services Study, Tampa/Sarasota, Florida           10/07/86
     A60336   Review of Tax Escalation Payments, Chester Federal Building, 7th & Welsh Streets,       10/08/86
              Chester, Pennsylvania, Lease No. GS-03B-20007
     A70021   Preaward Lease Review: Lakeside Building, 6000 Lakeside Boulevard, Indianapolis, In-    10/09/86
              diana, Lease No. GS-05B-14296
     A60103   Review of GSA Planning, Acquisition, Award, and Administration of Federal Leased        10/10/86
              Construction in Support of the Internal Revenue Service, Andover Service Center
     A60641   Preaward Lease Review: 402 West 35th Street, National City, California, Lease No. GS-   10/14/86
              09B-86764
     A60126   Review of Controls Over Polychlorinated Biphenyls (PCBs) in the National Capital Re-    10/15/86
              gion(NCR)
     A70019   Preaward Lease Review: Limestone Mine, Boyers, PA., Lease No. GS-03B-60663              10/17/86
     A60438   Review of Operations of the Des Moines, Iowa, Buildings Management Field Office         10/20/86
     A70mO    Preaward Lease Review: 100 Van Ness Avenue, San Francisco, California, Lease No. GS-    10/20/86
              09B-75262
     A60126   Review of Controls Over the Identification, Inspection and Documentation of Poly-       10/24/86
              chlorinated Biphenyls Contaminants
     A60636   Preaward Lease Review: Park Center One Building, 3101 Park Center Drive, Alexan-        10/28/86
              dria, Virginia, Lease No. GS-1lB-60251
     A60177   Review of San Diego Field Office, Region 9                                              10/30/86
     A60411   Interim Report on Status of Structural Concerns for One White Flint North               10/31/86
     A70047   Preaward Lease Review: Nash Street Building, 1400 Key Boulevard, Arlington, Virginia    10/31186
     A60621   Interim Report on Review of Repair and Alteration Work Item Inventory, Regions 9 &      11/03/86
              10: Item No. 0120, Upgrade Electrical Service, RCA 20926
     A70042   Preaward Lease Review: 400 Oceangate Blvd., Long Beach, California, Lease No. GS-       11106/86
              09B-38073
     A70044   Preaward Lease Review: 400 Oceangate Blvd., Long Beach, California, Lease No. GS-       11106/86
              09B-38137
     A70046   Proposed Award of Lease: Lease No. GS-08B-09926, Lea Building, Cheyenne, Wyoming        11107/86
     A70048   Review of Lease Option to Acquire Two White Flint North, 11555 Rockville Pike,          11/14/86
              North Bethesda, Maryland, Contract No. GS-ll-P-8601
     A70060   Proposed Award of Lease, Lease No. GS-01B(PEL)-03509 Neg., Building No.4, Shaw's        11124/86
              Cove, New London, Connecticut
     A60321   Review of Old and New Executive Office Buildings Retrofill Project for Reducing Poly-   11125/86
              chlorinated Biphenyls (PCBs)
     A70090   Proposed Award of Lease: Lease Number GS-04B-26289, Customs House, 701 Broad-           11/25/86
              way, Nashville, Tennessee
     A70099   Preaward Lease Review: Glopar Building, Norfolk, VA, Lease No. GS-03B-06448             11/25/86
     A70041   Proposed Award of Lease: Lease No. GS-02B-22327, Guaranty Building, 28 Church           11/26/86
              Street, Buffalo, NY
36
AlOll5   Proposed Award of Lease, Lease No. GS-01B(PEL)-03521 Neg., Norwalk Office Tower,        11/28/86
         24 Belden Avenue, Norwalk, Connecticut
A70043   Proposed Award of Lease: 300 Rabro Drive, Hauppauge, New York, Lease No. GS-02B-        12/01/86
         22343
A70113   Proposed Award of Lease Renewal: Yakima Tribe Building, Toppenish, Washington,          12/02/86
         Lease No. GS-lOB-04360
A60621   Review of Repair and Alteration Work Item Inventory, Regions 9 and lO: Item No. 0125,   12/03/86
         Replace Existing Water Supply Lines with Copper, RCA 20957
A60177   Review of the North Spring Street Field Office, Region 9                                12/04/86
A60323   Review of the Draft Amendment Proposal by the Office of the Regional Counsel Dated      12/04/86
         September 11, 1986
A70130   Preaward Lease Review: 525 Vine Building, Cincinnati, Ohio, Lease No. GS-05B-14463      12/04/86
A50621   Review of the Lease Enforcement Program in the National Capital Region                  12/09/86
A70145   Preaward Lease Review: 2lO Grandview Avenue, Camp Hill, Pennsylvania, Lease No.         12/lO/86
         GS-03B-79005
A60435   Review of the Prospectus Requirement for Relocation of the FBI Washington Field         12/15/86
         Office
A70122   Preaward Lease Review: Todd Building, 550 11th Street, N.W., Washington, D.C., Lease    12/15/86
         No. GS-I1B-60264
A60177   Review of Sacramento Field Office                                                       12/16/86
A70075   Preaward Lease Review: Phillips Building Annex, 4915 St. Elmo Avenue, Bethesda,         12/17/86
         Maryland, Lease No. GS-I1B-20050
A50226   Review of Indefinite Quantity Contracts for Repair and Alteration, Region 9             12/22/86
A70158   Preaward Lease Review: 425 East Colorado Street, Glendale, California, Lease No. GS-    12/23/86
         09B-86921
A70133   Summary Report of Preaward Lease Reviews, June 1984 through July 1986                   12/24/86
A70159   Preaward Lease Review: South West Quadrant, Interstate 80 and Business 80, Sacra-       12/30/86
         mento, California
A70161   Preaward Lease Review: Monument Parking Co., Inc., Judiciary Square, 555 4th Street,    12/30/86
         N.W., Washington, D.C., Lease No. GS-llB-60246
A70163   Preaward Lease Review: Scuderi Building, 4235 28th Avenue, Temple Hills, Maryland,      12/30/86
         Lease No. GS-llB-70049
A60548   Review of Lease No. GS-04B-26148, Nashville, Tennessee                                  01/07/87
A70123   Preaward Lease Review: Century Building, 2341 Jefferson Davis Highway, Arlington,       01/07/87
         Virginia, Lease No. GS-IlB-70030
A70170   Preaward Lease Review: 300 S. Wacker Building, Chicago, Illinois, Lease No. GS-05BR-    01/15/87
         9612
A70162   Preaward Lease Review:          Olmstead Foundation Building, 3lO0 Clarendon Boule-     01/16/87
         vard, Arlington, Virginia, Lease No. GS-1lB-60231
A70194            Lease Review: Christiansen Building,Vancouver, Washington, Lease No. GS-       01/21/87
         lOB-05337
A70195   Preaward Lease Review: 175 W. Jackson, Chicago, Illinois, Lease No. GS-05B-14402        01/22/87
A50373   Review of Unit Price Agreements for Leased Buildings                                    01/29/87
A70217   Preaward Lease Review: Southpark, Building K, 4175 Friedrich Lane, Austin, Texas,       01129/87
         Lease No. GS-07B-1I906
A70097   Preaward Lease Review: 923 St. Louis Street, Springfield, Missouri, Lease Number GS-    02/05/87
         06P-78605
A60621   Interim Report on Review of Repair and Alter:\tion Work Item Inventory, Regions 9 and   02/09/87
         lO: Item No. 0156, Install Metal Conduit for Smoke Detector Wiring, Included in RCA
         492lO
                                                                                                            37
     A70053   Review of Bidder's List for New Lease Project                                            02/10/87
     A50621   Review of Region 2's Lease Enforcement Procedures                                        02/13/87
     A60146   Review of IRS Lease at Mercantil Plaza, Hato Rey, Puerto Rico, Lease No. GS-02B-18851    02/13/87
     A50621   Review of Lease Enforcement, Region 9                                                    02/20/87
     A70268   Preaward Lease Review: 205 13th Street, San Francisco, California, Lease No. GS-09B-     02/20/87
              87305
     A70066   Review of the Circumstances Surrounding the Cancellation of Solicitation No. R7 -38H-    02/24/87
              85FT for Lease of Federal Courts Space, Houma, Louisiana
     A70267   Preaward Lease Review: Willard Road, Henrico County, Richmond, Virginia, Lease No.       02/25/87
              GS-03B-790 17
     A60468   Review of Lease No. GS-04B-23285, Fayetteville, North Carolina                           02/26/87
     A70290   Preaward Lease Review: Galaxy Building, 330 2nd Avenue South, Minneapolis, Min-          03/04/87
              nesota, Lease No. GS-05B-14458
     A70308   Preaward Lease Review: Banker's Building, 105 W. Adams Street, Chicago, Illinois,        03/05/87
              Lease No. GS-05B-14403
     A70246   Preaward Lease Review: One Greenway Plaza, Melville, New York 11747, Lease No.           03/11/87
              GS-02B-223 73
     A70302   Review of the Proposed Transaction Concerning East Union Center Plaza                    03/12/87
     A70313   Preaward Lease Review: Lease Extension, IRS, 1 N. Wacker Drive, Chicago, Illinois,       03/13/87
              Lease No. GS-05B-12276
     A70334   Preaward Lease Review: 215 Fremont Street, San Francisco, California, Lease No. GS-      03/13/87
              09B-60245
     A60377   Review of Hazardous Waste Management at GSA Laboratory, 390 Main Street, San             03/16/87
              Franscisco, California, Region 9
     A70314   Preaward Lease Review: Two Arboretum Lakes, 901 Warrenville Road, Lisle, Illinois,       03/16/87
              Lease No. GS-OSB-14441
     A70316   Review of Fire and Safety Program, Region 1, New Federal Office Building, Boston,        03/20/87
              Massachusetts
     A70323   Preaward Lease Review: New Construction, Market and Darlington Streets, Wilming-         03/24/87
              ton, North Carolina, Lease No. GS-04B-26309
     A60607   Review of Buildings Management Field Office, Indianapolis, Indiana, Region 5             03/31/87


     FSS      Contract Audits
     A60466   Preaward Audit of Multiple Award Schedule Contract: Schriock's Lawn & Trail, Inc.,       10/02/86
              Solicitation No. 7PM-52835/S5/7FC
     A60497   Preaward Audit of Cost or Pricing Data: Roger Carter Corporation, Solicitation No. GS-   10/02/86
              08-1572
     A60503   Preaward Audit of Multiple Award Schedule Contract: Southern Bleacher Company,           10/02/86
              Inc., Solicitation No. 7PM-S2840-J4-7FC
     A60622   Audit of Agencies' Vehicle Repair and Maintenance Costs: LF&J Automotive, Inc., St.      10/08/86
              Louis, Missouri, Contract No. GS-06W-00981 et al.
     A40045   Postaward Audit of Multiple Award Schedule Contract: American Sterilizer Company,        10/09/86
              Contract No. GS-00S-41165
     A60594   Preaward Audit of Cost or Pricing Data: T.G. Faust, Inc., Solicitation No. BO/FS-D-      10/10/86
              00637 (N)
     A60380   Preaward Audit of Multiple Award Schedule Contract Pricing Proposal: National Mi-        10/14/86
              crographic Systems, Inc., Solicitation No. FCG-B3-7S363-N-3-20-86
     A60604   Preaward Audit of Multiple Award Schedule Contract: Gould Inc., Recording Systems        10/14/86
              Division, Solicitation No. FCGS-Z7-40007-N-7-29-86
38
A70006   Preaward Audit of Multiple Award Schedule Contract: Miracle Recreation Equipment           10/27/86
         Company, Grinnell, Iowa, Solicitation No. 7PM-52840/J4I7FC
A70018   Preaward Audit of Multiple Award Schedule Contract: Iron Mountain Forge, Farming-          10/27/86
         ton, Missouri, Solicitation No. 7PM-52840/J4/7FC
A60592   Preaward Audit of Cost or Pricing Data: Ortho Pharmaceutical Corp., Solicitation No.       10/28/86
         FCGA-A3-XV247-N
A60633   Preaward Audit of Cost or Pricing Data: Harvard Interiors Mfg. Co., St. Louis, Missouri,   10/28/86
         Solicitation No. FNP5-S6-1633-N
A50645   Postaward Audit of Multiple Award Schedule Contract: Gould Incorporated, Imaging           10/29/86
         and Graphics Division, Contract No. GS-00S-45271 for the Period 7119/82 to 5/31/84
A60l78   Postaward Audit of Multiple Award Schedule Contract: Gould Incorporated, Imaging           10/31/86
         and Graphics Division, Contract No. GS-00F-780n for the Period 11/30/84 to 9/30/85
A60614   Preaward Audit of Cost or Pricing Data: Progressive Apparel, Inc., Solicitation No. BO/    11/03/86
         FS-B-00637
A60473   Preaward Audit of Multiple Award Schedule Contract: Fort Worth Tower Company, So-          11107/86
         licitation No. GS-08-1572
A70005   Preaward Audit of Multiple Award Schedule Contract: Advanced Systems, Incorpo-             11112/86
         rated, Solicitation No. FCGE-D7-75371
A60550   Preaward Audit of Cost or Pricing Data: Andrew Corporation, Grandview, Missouri, So-       11/18/86
         licitation No. GS-08-1572
A70095   Review of Proposal for Initial Pricing Under RFP No. FGS-Y2-39000-N-6-25-85: Tech-         11/20/86
         nical Services Laboratory, Inc., Fort Walton Beach, Florida
A70003   Preaward Audit of Multiple Award Schedule Contract: E.I. DuPont De Nemours &.              11/21/86
         Company, Inc., Solicitation No. FCGS-Y9-37002-N-6-11-86
A700n    Preaward Audit of Cost or Pricing Data: Michael Business Machines Corp., Solicitation      11/24/86
         No. FGE-A4-75361-N
A60l67   Postaward Audit of Multiple Award Schedule Contract: Stadiums Unlimited, Inc.,             11125/86
         Grinnell, Iowa, Contract No. GS-lOS-4S788 for the Period 9/1/83 to 10/31/84
A60529   Postaward Audit of Multiple Award Schedule Contract: Stadiums Unlimited, Inc.,             11/25/86
         Grinnell, Iowa, Contract No. GS-lOF-46881 for the Period 2114/85 to 10/31/86
A60520   Preaward Audit of Cost or Pricing Data: A. Brandt Company, Inc., Solicitation No.          12/01/86
         FCNH-FS-1880-N-5-6-86
A60639   Preaward Audit of Multiple Award Schedule Contract: Honeywell, Inc., Solicitation          12/02/86
         No. FCGS-Z7-40007-N-7-29-86
A60302   Postaward Audit of Multiple Award Schedule Contract: Reliance Electric Company,            12/05/86
         Toledo Scale Division, Contract No. GS-00S-70l78
A60303   Postaward Audit of Multiple Award Schedule Contract: Reliance Electric Company,            12/05/86
         Toledo Scale Division, Contract No. GS-00S-57088
A60304   Postaward Audit of Multiple Award Schedule Contract: Reliance Electric Company,            12/05/86
         Toledo     Division, Contract No. GS-00F-78055
A60631   Preaward Audit of Cost or Pricing Data: Mosler Safe Company, Solicitation No. FNP-         12/08/86
         Cl 1542-N
A70056   Preaward Audit of Cost or Pricing Data: Deft Inc., Solicitation No. lOPN-ZBS-0441          12/12/86
A70l26   Preaward Audit   Cost or 'Pricing Data: Sargent &. Greenleaf, Inc., Solicitation No.       12/23/86
         7PRT -S2884/CG17FXI
A70079   Preaward Audit of Multiple Award Schedule Contract: Packard Instrument Co., Solic-         12/24/86
         itation No. FCGS-Z2-400l0-N-1O-16-86
A70l00   Preaward Audit of Multiple Award Schedule Contract: ElK! International, Inc., Laguna       01107/87
         Niguel, California, Solicitation No. FCGE-B7-75382-N
A70l18             Audit of a Partial Termination Propl}sal: Dean's Security Professionals, Con-    01/08/87
         tract No. GS-09F-50S22
                                                                                                               39
     A70134   Preaward Audit of Multiple Award Schedule Contract: The Perkin-Elmer Corporation,      01/09/87
              Solicitation No. FCGS-Z2-400l0-N-1O-16-86
     A70l93   Review of Proposal for Initial Pricing Under RFP No. lOPR-XPD-0390: CAAP Com-          01114/87
              pany, Inc., Milford, Connecticut
     A70119   Preaward Audit of Multiple Award Schedule Contract: Beckman Instruments, Inc.,         01/16/87
              Spinco Division, Solicitation No. FCGS-YS-37003-N-4-1S-86
     A701S7   Discount and Commerciality Survey of Multiple Award Schedule Contract: Johnston-       01/21/87
              Tombigbee Furniture Manufacturing Co., Inc., Contract No. GS-00F-76114
     A70069   Preaward Audit of Multiple Award Schedule Contract: Ciba Corning Diagnostics Corp.,    01122/87
              Gilford Systems, Solicitation No. FCGS-Z2-4001O-N-1O-16-86
     A70107   Preaward Audit of Multiple Award Schedule Contract: Nuclear Data Instrument Divi-      01/23/87
              sion, Solicitation No. FCGS-Z2-400l0-N-1O-16-86
     AS0230   Postaward Audit of Multiple Award Schedule Contract: John Savoy & Son, Inc., Con-      01126/87
              tract No. GS-00S-38102 for the Period 711180 to 12/31183
     A70080   Preaward Audit of Multiple Award Schedule Contract: Dukane Corporation, Solicita-      01127/87
              tion No. FCGE-B7-7S382-N-9-1S-86
     A70202   Preaward Audit of Cost or Pricing Data: Curtiss-Wright/Marquette, Inc., Solicitation   01129/87
              No. FCEN-EW-A611I-N-S-14-86
     A70086   Preaward Audit of Multiple Award Schedule Contract: Kevex Corporation, Solicitation    02/04/87
              No. FCGS-Z2-4001O-N-1O-16-86
     A700S7   Preaward Audit of Multiple Award Schedule Contract: Western Graphtec, Inc., Solici-    02112/87
              tation No. FCGS-Z7-40007-N-7-29-86
     A70084   Preaward Audit of Multiple Award Schedule Contract: Hewlett-Packard Company, So-       02112/87
              licitation No. FCGS-Z2-4001O-N-1O-16-86
     A60297   Postaward Audit of Multiple Award Schedule Contract: Hobart Corporation, Contract      02/13/87
              No. GS-00S-63349 for the Period 811/83 through 9130/84
     A7004S   Audit of Claim for Increased Costs: Southwest-Tex Leasing Company, Inc., Contract      02/17/87
              Nos. GS-07S-0371S and GS-07S-03804
     A70124   Preaward Evaluation of Pricing Proposal: Costar Corporation, Solicitation No. FCGS-    02/19/87
              ZI-40008-N-1O-02-86
     A70191   Preaward Audit of Multiple Award Schedule Contract: Huntington Laboratories, Inc.,     02120/87
              Solicitation No. lOPN-SKS-60S1
     A70201   Preaward Audit of Multiple Award Schedule Contract: Wexford Labs, Inc., Kirkwood,      02/23/87
              Missouri, Solicitation No. lOPN-SKS-6051
     A70103   Preaward Audit of Multiple Award Schedule Contract: Eastman Kodak Company, So-         02124/87
              licitation No. FCGE-B7-75382-N
     A70127   Preaward Audit of Multiple Award Schedule Contract: VG Instruments Inc., Solicita-     02124/87
              tion No. FCGS-Z2-4001O-N-1O-16-86
     A70139   Preaward Audit of Multiple Award Schedule Contract: Tennant Company, Solicitation      02/24/87
              No. 7PM-53003/F5/7FX
     A70114   Preaward Audit of Multiple Award Schedule Contract: Canon U.S.A. Inc., Solicitation    02/25/87
              No. FCGE-B7-7S382-N-1O-16-86
     A70168   Preaward Audit of Multiple Award Schedule Contract: Nikon Inc., Solicitation No.       02126/87
              FCGE-B7-75382-N
     A70136   Preaward Audit of Multiple Award Schedule Contract: Advance Machine Company, So-       02127/87
              licitation No. FPM-53003/F517FX
     A70200   Preaward Audit of Multiple Award Schedule Contract: Vestal Laboratories, Inc., St.     02127/87
              Louis, Missouri, Solicitation No. lOPN-SKS-6051
     A70175   Preaward Audit of Multiple Award Schedule Contract: Beckman Instruments, Inc.,         03/03/87
              Bioanalytical Systems Group, Scientific Instruments Division (SID), Solicitation No.
              FCGS-Z2-4001O-N-1O-16-86

40
A7020S   Preaward Audit of Multiple Award Schedule Contract: Bruel & Kjaer Instruments, Inc.,                   03/03/87
         Solicitation No. f:CGS-Y4-37004-N-12-11-86
A70l41   Preaward Audit of Multiple Award Schedule Contract: Brunswick Bowling and Billiards                    03/06/87
         Corporation, Solicitation No. lOPN-NTS-0279
A70247   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Audio Visual Di-                       03/09/87
         vision, Solicitation No. FCGE-A7-7S402-N-2-3-87
A702S4   Preaward Evaluation of Price Proposal: Marconi Instruments Division, Marconi Elec-                     03109/87
         tronics, Inc., Allendale, New Jersey, Solicitation No. FCGS-Y4-37004-N-12-11-86
A70225   Postaward Audit of Emergency Power Engineering, Inc., Contract No. GS-00F-70447                        03112187
A70076   Preaward Audit of Multiple Award Schedule Contract: Nicolet Instrument Corpora-                        03/13/87
         tion, Analytical Instrument Division, Solicitation No. FCGS-Z2-400l0-N-1O-16-86
A70076   Preaward Audit of Multiple Award Schedule Contract: Nicolet Instrument Corpora-                        03/17/87
         tion, Analytical Instrument Division, Solicitation No. FCGS-Z2-4001O-N-1O-16-86
A70228   Preaward Audit of Multiple Award Schedule Contract: Unifonns Manufacturing Inc.,                       03/17/87
         Solicitation No. 7PM-5324517.3/7FX
A70l40   Preaward Audit of Multiple Award Schedule Contract: Clark Equipment Companyl                           03118187
         Melroe Division, Solicitation No. 7PM-5300MFS/FX
A70l84   Preaward Audit of Multiple Award Schedule Contract: Gemad, Inc., Solicitation No.                      03/18/87
         FCGS-Y4-37004-N -12-11-86
A70279   Preaward Audit of Multiple Award Schedule Contract: Industrial Footwear of America,                    03/18/87
         (Titan), Solicitation No. 7PM-53245/Z3/7PM
A70l76   Preaward Audit of Multiple Award Schedule Contract: Becton Dickinson Labware/Fal-                      03119187
         con Labware, Solicitation No. FCGS-Zl-40008-N-1O-2 .. 86
A70l1O   Audit of Compliance with Contract Provisions: Meredith Relocation Corporation, dba                     03125/87
         Better Homes and         Des Moines, Iowa, Contract No. GS-00F-87040
A70229   Preaward Audit of Multiple            Schedule Contract: Rainfair, Inc., Solicitation No.              03125/87
         7PM-5324S/Z3I7FX
A70255                                         '-'vL'",UULv   Contract: RICOH Corporation, Solicita-            03/26/87

A70137                      of              Schedule Contract: Desco Manufacturing Co., Inc.,                   03127/87
           HVALa'.'VH   No. 7PM-53003/FS/7FX
A70l80             Audit of Cost or      Data:          auvueu     Micrographics                Inc., Solici-   03127187
         tation No. FGE-Rj-75363-N-3-20-86
A70243                                                                    HHUlln};,   Division of AM Inter-     03127/87

A70305                                                        Contract:                    Solicitation No.     03127187

A70227                                       ,J,",1',,",'-''-'''.. Contract: t:omotnt, Division of Becton       031:30/87
                                      7PM-53245/Z.1I7FX
A70280                                                    Contract: Fashion Seal Uniform, Division              03/30/87
                                                            No. 7PMSU4S/Z1I7FX



A50S67   Review of                                                    Produced                                  10131/86
A60499                                                                Effectiveness of Shipments at the         11124/86

A60l08                        Warranties and                      4                                             11/26/86
A60l66   Review of Multiple Award Procurements of Prefabricated Structures                                      12/15/86
A700Sl   Observation of the           Inventory           Franconia Distribution Center, Franconia,             12122/86
         VA

                                                                                                                            41
     A70031   Review of Vehicle Sales, Region 4                                                        02/11/87
     A60512   Limited Review of the International Supply Schedule                                      03/23/87



     IRMS     Contract Audits
     A50033   Postaward Audit of Multiple Award Schedule Contract: CPT Corporation, Contract           10/03/86
              No. GS-00K-840lS-5673 for the Period 10/1/83 to 9/30/84
     A50152   Postaward Audit of Multiple Award Schedule Contract: CPT Corporation, Contract           10/03/86
              No. GS-00C-03566 for the Period 12/14/82 to 9/30/83
     A60152   Postaward Audit of Multiple Award Schedule Contract: CPT Corporation, Contract           10/03/86
              No. GS-00K-8501S-5928 for the Period 10/1/84 to 12/19/85
     A60406   Postaward Audit of Multiple Award Schedule Contracts: Data General Corporation,          10/07/86
              Contract Nos. GSC-00C-03078, GS-00C-03401, GS-00K-84-01-S5763, and GS-00K-85-
              01-S592 7 for the Periods 3/22/82 to 9/30/85
     A60569   Preaward Audit of Cost or Pricing Data: Applied Technology Associates, Inc., Solicita-   10/21/86
              tion No. KECA-86-007
     A60542   Preaward Audit of Cost or Pricing Data: Databeam Corporation, Solicitation No. GSC-      10/22/86
              KESCV-0038-N-4-17-86
     A70024   Audit Report on Evaluation of Price Proposal Submitted by: Demo Laboratories, Inc.,      10/23/86
              Gaithersburg, Maryland, Solicitation No. GSC-KESCR-0039-N-5-13-86
     A40674   Postaward Audit of Multiple Award Schedule Contract: Dysan Corporation, Contract         10/29/86
              No. GS-00K-830IS-5133 for the Period 5/2/83 to 6/30/84
     A70058   Review of Price Proposal for GSA Catalog Update Under Contract No. GS-00K-86-AGS-        ll/03/86
              0679: Rockwell International Corporation, Collins Defense Communications, Cedar
              Rapids, Iowa
     A60458   Preaward Audit of Multiple Award Schedule Contract: Storage Technology Corpora-          ll/1O/86
              tion, Solicitation No. GSC-KESA-C-00033-N-4-15-86
     A60516   Preaward Audit of Multiple Award Schedule Contract: Memorex Corporation, Solici-         ll/17/86
              tation No. GSC-KESA-C-00033-N-4-15-86
     A60475   Preaward Audit of Multiple Award Schedule Contract: Data Resources, Inc., Solicita-      ll/19/86
              tion No. GSEC-KECT-A-00008-N-4-10-85
     A60447   Preaward Audit of Multiple Award Schedule Contract: Vion Corporation, Solicitation       12/10/86
              No. GSC-KESA-C-00033-N-4-15-86
     A70152   Review of Firm Fixed Price Bid Proposal Submitted in Response to GSA RFP No. KECA        12/15/86
              86-011: D. P. Associates, Inc. Huntsville, Alabama
     A60370   Preaward Audit of Multiple Award Schedule Contract: UNISYS Corporation, McLean,          12/17/86
              Virginia, Solicitation No. GSC-KESA-C-00033-N
     A70132   Preaward Audit of Cost or Pricing Data: Vanguard Technologies Corporation, Solicita-     12/19/86
              tion No. KECA-86011
     A70156   Review of Price Proposal Submitted by Intelect, Inc., Honolulu, Hawaii                   12/19/86
     A60540   Postaward Audit of Multiple Award Schedule Contracts: REIIInforex, Inc., Contract        12/31/86
              Nos. GS-00K-84-OlS-5688 and GS-00K-86-AGF-5740 for the Periods 10/1/84 to 9/30/85
              and 1/6/86 to 9/30/86
     A70171   Review of Firm Fixed Price Proposal Submitted in Response to General Services Admin-     01/06/87
              istration RFP No. KECA-86-011 by: Colsa, Incorporated, Huntsville, Alabama
     A70102   Preaward Audit of Cost or Pricing Data: Comsi-O'Fallon, Inc., Solicitation No. GSC-      01/09/87
              OIT-6066
     A70189   Evaluation of Proposal Submitted by: The Corporation for Applied Systems, Rockville,     01/13/87
              Maryland, Solicitation No. GSC-OIT-6066
     A70190   Review of Proposal for Initial Pricing Under Multiple Award Schedule Indefinite Quan-    01/13/87
              tity Solicitation No. GSC-KESCV-00038-N-41786: American Sattelite Company, Gov-
42            emment Systems Division (GSDt McLean, Virginia
A70135   Preaward Audit of Multiple Award Schedule Contract: Infotron Systems Corporation,        01/28/87
         Solicitation No. GSC-KESF-G-00034-N-11-19-86
A60577   Preaward Audit of Multiple Award Schedule Contract: Finalco, Inc., Contract No. GS-      01/30/87
         00K-86-AGS-5737
A70216   Review of Proposal for Initial Pricing Under Govemment Solicitation No. GSC-OIT-         01/30/87
         6066: Technical Software Associates, Inc., Atlanta, Georgia
A70038   Preaward Audit of Cost or PriCing Data: Applied Technology Associates, Inc., Solicita-   02102/87
         tion No. KECA-86-0l1
A70061   Preaward Audit of Multiple Award Schedule Contract: Systernhouse Inc., Solicitation      02/02/87
         No. GSC-KESA-G-00032-N-12-17-85
A60419   Preaward Evaluation of Multiple Award Schedule Contract: Finalco, Inc., Contract No.     02/03/87
         GS-OOK -86-AGS-5 73 7
A70153   Preaward Audit of Multiple Award Schedule Contract: Digital Communications As-           02/09/87
         sociates, Inc., Contract No. GS-00K-86-AGS-5264
A70106   Preaward Audit of Cost or Pricing Data: GTE Data Services Incorporated, Solicitation     02/20/87
         No. GSC-KECT-A-00008-N-4-10-85, Amendment Two
A60364   Preaward Audit of Pricing Proposal: IBM Corporation, Solicitation No. GSC-KESA-C-        02124/87
         00033-N-4-15-86
A70150   Preaward Audit of Multiple Award Schedule Contract: Commart, Inc., Solicitation No.      02125/87
         GSC-KESF-G-00034-N -11-19-86
A70165   Preaward Audit of Multiple Award Schedule Contract: International Data Sciences,         02126/87
         Inc., Solicitation No. GSC-KESF-G-00034-N-ll-19~86
A70151   Preaward Audit of Multiple Award Schedule Contract: Data Access Systems, Inc., So-       02127/87
         licitation No. GSC-KESF-G-00034-N-11-19-86
A70149   Preaward Audit of Multiple Award Schedule Contract: Genicom Corporation, Solici-         03/06/87
         tation No. GSC-KESF-G-00034-N-11-19-86
A70317   Review of Proposal for Initial Pricing Under GSA Solicitation No. GSC-KESV-00041-N-      03/11/87
         12-4-86 Submitted by: Datatape Incorporated, A Kodak Company, Pasadena, California
A70l73   Preaward Audit of Multiple Award Schedule Contract: Sharp Electronics Corp., Solici-     03/16/87
         tation No. GSC-KESS-B-00035-N-U-26-86
A70188   Preaward Evaluation of Multiple Award Schedule Contract: Technology Services, Inc.,      03125/87
         Solicitation No. GSC-KESS-B-00035-N-11-26-86


IRMS     Internal Audits
A60537   Review of Pricing Evaluations for Purchase of Telephones and Services (POTS)             10/02/86
         Contracts
A60537   Review of Pricing Evaluations for Purchase of Telephones and Services (POTS)             10/08/86
         Contracts
A60537   Review of Pricing Evaluations for Purchase of Telephones and Services (POTS)             10127/86
         Contracts
A60537   Review of Pricing Evaluations for Purchase of Telephones and Services (POTS)             11114/86
         Contracts
A60273   Review of ADP Systems Acquisition Procedures in the National Capital Region              11121/86
A70002   Review of Information Provided to Users of the Purchase of Telephones and Services       01109/87
         (POTS) Contract, Region 9
A60537   Interim Audit Report - Review of Pricing Evaluations for Purchase of Telephones and      01126/87
         Services (POTS) Contracts, Report No. A60537
A60453   Review of the Procurement Process Used for POTS Contracts                                01/30/87
A50275   Consolidated Report on Review of Federal Telecommunications System (FTS)                 03116/87
         Utilization
A50309   Review of AcqUisition and Use of Office Automation and ADP Equipment                     03/31/87 43
     Other
     GSA      Contract Audits
     A70248   Preaward Audit of Cost of Money Proposal: Elkem Metals Company, Solicitation No.          03/23/87
              DMC-A106


     Other
     GSA      Internal Audits
     A50275   Review of Federal Telecommunications System Utilization (Phase I), GSA Central            10/07/86
              Office
     A50437   Review of the Administration of the Stockpile Program, Zone 2                             10/15/86
     A60567   Review of the Office of Inspector General Confidential Fund                               10/15/86
     A60644   Review of GSA's Procedures for Receiving and Processing Monies from the National          10/21/86
              Archives and Records Administration in Kansas City, Missouri
     A60299   Review of Management Controls Over the Consolidation of Financial Functions in            11104/86
              Region 6
     A60425   Maintaining GSA Forms 19 for Authorization to Requisition Reproduction Service Is         11/20/86
              Not Needed
     A60053   Review of GSA's Compliance with IRS Information Return Requirements                       12/08/86
     A70068   Review of Imprest Fund and Travelers Checks at the Regional Office Building in            01/23/87
              Region 5
     A60465   Review of Contract Modification for the Purchase of Computer Software                     01129/87
     A70034   Review of Imprest Fund and Travelers Checks at the Regional Office Building,              01129/87
              Region 4
     A70144   Review of Controls Over the Reporting of Fiscal Year 1986 Consulting Service              02/05/87
              Contracts
     A50391   Review of Indefinite Quantity Contracts for Repair and Alterations Awarded by             02/06/87
              Region 3
     A60299   Review of Controls Over the Consolidation of Financial Functions in Region 7              02/24/87
     A70014   Review of Imprest Fund, Houston Field Office, Buildings Management Division               02/27/87
     A60263   Review of Budget Activity 61 Maintenance Repairs for Fiscal Year 1985 in Region 5         03/02/87
     A70181   Review of Imprest Fund at Battery Park Buildings Management Field Office, 6 World         03/16/87
              Trade Center, New York, N.Y.
     A60425   Review of the Operations of the Cincinnati Printing Plant                                 03/18/87


     Non-
     GSA      Contract Audits
     A60528   Preaward Audit of Cost or Pricing Data: University of Texas at Austin, Solicitation No.   11/12/86
              LBJ1NARA




44
APPENDIX II - DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                          •     Twenty-seven delinquent accounts were referred
presented herein.                                                                   to collection agencies.
                                                                              •     A review of receivable operations was performed
                                                                                    by finance personnel, who recommended initia-
                                                                                    tion of more aggressive follow-up on delinquent
                                                                                    non-Federal accounts receivable.
GSA Efforts to Improve Debt
Collection                                                                  Non.. Federal Accounts
During the period October I, 1986 through March 31,
1987, GSA efforts to improve debt collection and re-                        Receivable
duce the amount of debt written off as uncollectible fo-
cused on upgrading collections functions and                                In the past, the OIG reported these data for the periods
enhancing debt management. These activities included                        July through December and December through July due
the following:                                                              to our understanding that more current data were not
                                                                            available at the time of publication of this report. The
  •   As a result of a letter sent to all mortgagors, eight                 Office of Finance has advised that data corresponding to
      mortgages valued at approximately $2.1 million                        our reporting periods are now available. Therefore, in
      were paid off. The letter suggested that mortgag-                     order to bridge the gap between this and our last Report
      ors take advantage of current low interest rates                      to the Congress, we are providing data for the period
      and obtain private loans to payoff their GSA                          June 30, 1986 through March 31, 1987, as well as for the
      mortgages.                                                            period October I, 1986 through March 31, 1987.


                                                                          As of                  As of
                                                                       June 30, 1986         March 31, 1987 Difference

      Total Amounts
        Due GSA ................................................. .      $29,063,286            $28,908,306       ($154,980)
      Amount Delinquent ..................................... .          $16,068,816            $14,880,512     ($1,188,304)
      Total Amount Written
        Off as Uncollectible
        Between 6/30/86
        and 3/31/87 ............................................ ..      $176,333



                                                                              of                 As of
                                                                       October 1, 1986       March 31, 1987 Difference

      Total Amounts
        Due GSA ................................................. .      $32,962,623            $28,908,306     ($4,054,317)
      Amount Delinquent .................................... ..          $16,195,165            $14,880,512     ($1,314,653)
      T olal Amount Written
         Off as Uncollectible
         Between 10/1/86
         and 3/31/87 ............................................. .     $61,970


Of the total amounts due GSA and the amounts                                dispute. Of the total amounts due GSA and the amount
delinquent as of June 30, 1986 and October I, 1986,                         delinquent as of March 31, 1987, $12 million is being
$11.1 million and $9.4 millioh, respectively, were in                       disputed.




                                                                                                                                       45
NOTES
NOTES·
NOTES
